Deparment of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





BARRIE . RS TO FREEING CHILDREN

                    FOR ADOPTION





                 Sf."VJCES. 1IJ'
            t-




                                   Richard P. Kusserow

       "b


            1-   """ 30
                                   INSPECTOR GENERA
                                      FEBRUARY 1991
Departll1ellt of Health and Human Services

         OFFICE OF

    INSPECTOR GENERAL





BARRIERS TO FREEING CHILDREN

       FOR ADOPTION





                  f.RVI(,fS.



                               Richard P. Kusserow
                               INSPECTOR GENERAL
        '0


             Jy -lItVd3C1
                                  GEl - 06- 89- 01640
                    EXECUTIVE SUMMARY

INTRODUCTION


PURPOSE AND BACKGROUND

This report is concerned with children in foster care who cannot return to their families. Its
purpose is to identify problems in the process of terminating parental rights that delay or prevent
children from leaving State-supervised foster care to enter permanent adoptive homes.

The Adoption Assistance and Child Welfare Act of 1980 (PL 96- 272) introduced broad reforms
in the Federal funding and regulation of State foster care services. The Act provides incentives
for States to develop administrative strctures and remedial services to 1) shorten the time
children must spend in substitute care, and 2) return children expeditiously to their families. For
those children who cannot return to their families, agencies are encouraged to investigate, in a
timely manner , other options which offer the children a stable family relationship. Adoption is
the preferred option for most children who cannot return home.

Implementing plans of adoption takes longer than implementing other types of placement for
children. The gravity of the issues and the complexity of the legal processes explain some of the
additional implementation time. Child welfare and legal professionals express concern
however, that the first part of the implementation process, freeing children from the legal ties to
their parents through termnation of parental rights, unnecessarly slows or di mr!.';   dopti
placements. Children often remain in foster care for extended periods after permanent placement
plans have been established for them, undermining their opportunities for succe fl!l adoptive
placement and placing them in a legal and psychological limbo in terms of fanlily identification.


METHODOLOGY

For this inspection , we have collected three basic types of informari0il:  \.views of State laws
relating to termination of parental rights , descriptions by key professionals of selected States
processes for freeing children for adoption and of delays or barers in those processes , and
reports of emerging practices that deal with some of the problems.


FINDINGS

States do not routinely track delays in freeing children for adoption , but there is evidence that
children remain in foster care too long.

       In States where special studies have been conducted, children with adoption plans
       generally remain in foster care between 3. 5 and 5. 5 years.
Slale$ have made legislath'e progress.

      Most States have basic legislation in place to guide the termination of parental rights
      process.


Administrati,'e barriers ill the child welfare system cause the most excessive delays in freeing
children for adoption.

      States are not timely or effective in meeting " reasonable efforts to reunite families
      requirements which are prerequisites to permanent placement.

      Limited management commitment and lack: of staff and services playa significant role in
      the failure to make " reasonable efforts.

      The consideration of long-term care options fQr children is delayed. These delays result in
      loss of valuable information for case records and poor planning for children.


Many barriers and delays arise from the legal and judicial systems.

      Case documentation is frequently inadequate.

      Implementation of adoption plans often stops with pre- petition reviews. Decision-making
      hinges on the pOtential for legal success rather than the social service goals for the case.

      The legal resources available for child welfare ca3es 2:. inadequate.

      Scheduling and conducting court hearngs delay implementation of adoption plans. Delays

      most frquently result from interrptions of proce uings for other civil matters, crowded
      court dockets, and inability to coordinate (le- schedules   of a varety   of hearng paricipants.


      Judicial biases or inaction often result in delays.

      The question of whether children are adoptable is asked several times during the process.

      The legal procedures in many States make contradictOry demands on State adoption
      servIces.
Some S. lales haJ'c deJ'e!oped new practices to expedite freeing   children for adoption.


      States have developed specialized severance units , amended disjointed coun processes,
      created expedited tracks for freeing certain children , and developed forums for pre-trial
      mediation and settlement of termination cases.

      In a few Department of Health and Human Services demonstration projects, some States
      have developed contractual models for agency representation in court cases, or have put
      into place multi- disciplinary problem solving forums and training sessions.


RECOMMENDATIONS

Stale Governments should:

      Mandate by statute well- defined, expedited tracks for freeing children who wil clearly not
      return home in a reasonable period;

      Prescribe clear time and service requirements for " reasonable effons " and provide
      sufficient State funding for compliance;

      Provide adequate resources to enable State courts to hear and rule on child dependency
      cases in a timely manner; and

      Offer increased training on permanency planning, in general, and on termination of
      parental rights, in particular, for child welfare staff, judges, public attorneys, and the staffs
      of contractual service providers.


The Administration for Children Youth and Families should:



      Serve as a clearinghouse for information concerning permanency planning training and
      effective practices for implementing permanent plans;

      Explore staff retention strategies. Disseminate the results of such exploration to the States
      and agencies, and provide training and technical assistance for implementing appropriate
      strategies to the States;




      Through the Department s discretionary funding authority, provide seed monies for
      implementation of treatment programs that deal with current family issues; and

      Move quickly to complete and implement the national child welfare data base.




                                                   111
                       ,"     , "
                  ,'




NOTE: Implementation of these recommendations would result in cost increases to bOth Fed­
      eral and State governments. However, these increases could be at least partially offset
      by savings in foster care maintenance costs and long-term administrative costs result­
      ing from reductions in the time children spend in foster care. Please refer to
          Appendix A        Federal Costs Offset.



DEPARTMENTAL COMMENTS

We received comments from the Offce of Human Development Services (OHDS), the Assistant
Secretary of Planning and Evaluation (ASPE), the Assistant Secreta for Management and
Budget (ASMB), and two external agencies. Both OHDS and ASPE concurred with the
recommendations and offered suggestions for providing clearer, more detailed language on
certain findings or recommendations. ASMB while generally supponive of the findings,
believed greater emphasis should be placed on the costs associated with implementing the
report s recommendations. On the basis of the reviewers ' suggestions, we have made several
modifications in the report to clarfy some sections and to make important distinctions in others.
Please refer to Appendix B OIG Response to Deparmental Comments, " and to Appendix C
which contains the full text of all comments.
                                                                         ............
                       ................................ ............ ........                             " ........................ .
                                                                                  ...................... ..............................




                        TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTR 0 D UCTI 0 N......................................... .......................................... ........ .......... 1

       Purpose......................................................... .......... .......... ................................... 1


       Background............................................. ............................................................ 


       Methodology..... .................................. .......................... .............. ....................... 4


FINDINGS .....                                                                     .................................. ..............,. 6


       States Do Not Routinely Track Delays in Freeing Childrn for Adoption,

       But There Is Evidence Childrn Remai in Foster Ca Too Long .....................


       States Have Made Legislative Progrss ...........................................................


       Administrative Baners in the Child Welfare Delivery System Cause

       the Most Excessive Delays in Freeing Childrn for Adoption...........................                                               11




       Many Baners and Delays Arse From the Legal and Judicial Systems ............


       Some States Have Developed New Practices to Expedte Freeing

       Children for Adoption......... .................... 


RECO MMEND A TIO NS ......... .............. .......................... .................... ....................


END NOTES............................................................................................................. .


BIB LI 0 G RAPHY ......................................................................................... .......... .


APPENDIX A " Federal Costs Offset" ............................................................. A­


APPENDIX B " OIG Response to Departmental Comments


APPENDIX C " Full Text of Comments" ........................................................

                               INTRODUCTION

PURPOSE

This report is concerned with children in State-supervised foster care who cannot return to their
families. Its purpose is to identify problems in the process of termnating parental rights that
delay or prevent children from leaving foster care and entering permanent adoptive homes.


BACKGROUND

Permanency Planning and the Adoption Assistance and Child Welfare Act of 1980

Foster care is intended to be a temporar child welfar service providing assistance and
residential care to children unable to live safely with their own parents. During the last two
decades, these substitute care services have undergone substantial change. Many of these
changes resulted from research in the preceding decades indicating that some children " drifted"
in foster care for most or all of their formative years without effons to place them in permanent
homes.

Permanency planning is one of these substantive changes. It is a social services approach that
attempts to insure that children do not become stranded in the child welfare system. Child
welfare staff work with families to identify the problems that have brought their children into
care and to secure services for families ranging from counsellng and social services to economic
assistance to provision of specific commodities. Permanency planning emphasizes early
consideration of the varous options that children have for pennanent placement, including
planning for the possibility that some famlies wil not be reunified. Finally, this approach
requires routine administrative review procedures and judicial intervention to insure that plans
and decisions for foster childrn are made in a timely and effective manner.

Public Law 96- 272 , The Adoption Assistance and Child Welfare Act of 1980, gave statUtory
recognition to permanency planning procedures. The Act amended Title IV of the Social
Security Act, providing for the first time a formal Federal role in monitoring the delivery as well
as the financing of foster care services. Even more critically, the legislation shifted the emphasis
for Federal financial paricipation in State foster care programs toward prevention and family
reunification services.



In order to receive their full share of Federal appropriations under the Act , States must set
permanent placement goals for all children in care, provide the services to the child and family to
help them meet those goals, and establish procedures to monitor the appropriateness of foster
care services. States can receive no reimbursement for children in care unless these children
enter and remain in care despite " reasonable efforts " by the child welfare agency to reunite the
children and their families.
The Administration for Children , Youth and Families (ACYF) has responsibility for regulating
;lId m(;nitoring State compliance with the requirements of PL 96- 272. Regional staffs are
charged with conducting regular case record and State reviews in order to insure State child
welfare agencies make long-term plans for children in their care and review these plans on a
regular basis.

Adoption as a Permanency Planning Option

Federal legislation and policy clearly favor reunification of families as the preferred foster care
outcome. States are required to make " reasonable efforts " (a term not defined in statute or
regulation that relates to the sufficiency of the quality and level of remedial services provided to
families) to maintain or reunify family units. A significant number of children , however, cannot
return to biological parents because child welfare professionals judge that, even with the
provision of social services or other assistance, their homes cannot be made safe within a
reasonable amount of time. In such cases, other long-term options such as adoption
guardianship, or permanent foster care become children s permanent plans.

In fiscal year (FY) 1986, approximatel 13% of the children in foster care were identified as
having a permanency plan of ado             Adoption takes considerably longer to implem nt than
                                   ftion.
other permanency arangements. Some delay is expected because of the additional activities
required, and the larger number of individuals and organizations involved. Because of the social
and legal status of families and the recognition of the importnce of biological ties, all
practitioners are reluctant to sever family ties hastily. Child welfare practitioners and advocates
report, however, that freeing children for adoption is a significant barer to the timely
implementation of pennanent plans for children. AnecdOtal evidence indicates that the process
takes longer than necessary, certainly longer than the best interests of the children dictate.
Further, petitioning for such action is seen as having unpredictable outcomes.

If the purpose of permanency planning is to insure that children leave foster care as safely and
rapidly as possible, both the planning and implementation of long-range plans for children must
proceed effciently and predictably. Given that children s ages are such a critical factor in
adoptions, remaining in foster care well beyond the determination that adoption is the preferable
option undermnes children s chances for successful adoptions. Funher, extended periods
wherein parental rights are in dispute severely compromises the healthy development of these
already fragile children.
                                            FIGURE 1

                        State Sources of Information




tJP




             State. Sweyed for th Stuy:
                     Arizona Mississippi
                     California                              South Carolina
                                                             Texas
                     Delaware Missouri
                     Minnesota
                                Rhode Island                 Wisconsin


             State. wit Depart of Health and
             of Parental Rights
                                                      Hu Serices Tertion
                                  Demonstration Projects:
                     Kentucky
                     Michigan New
                              Idaho
                                              York           Washington
                                                             Oregon

                           T..tlon of Parenta Rlght8 SureY8/Studies
                      Be Coted
                          Wh
      1i;, States

             Have

      i1.
                     Louisiana           New Jersey          Washington. D.
                     Nebraska            New Mexico
METHOOOLOGY

Because the National Child Welfare Data Base has not yet been implemented (as mandated by
PL 96- 272), the absence of any consistent, comprehensive, " hard" national data on child welfare
services and processes compelled us to diversify our data collection activities. We relied
substantially on the infomled observations and judgments of professionals in the child welfare
system and those who have regular and prolonged contact with the system , and on written data in
the fonns of demonstration reports and laws. Thus , we collected and analyzed data from three
sources: 1) reviews of the basic features of the various State laws relating to ternlination of
parental rights , 2) descriptions by key professionals in selected States of the processes for freeing
children for adoption and of delays or bariers in those processes, and 3) reports of emerging or
tested practices which address some of the bariers.

We reviewed parental custody statutes in all fifty states. The National Conference of State
Legislatures provided copies of its 1989 State Legislative Report, 

                                                                       Termination of Parental
Rights,and copies of legislative updates since the publication of that report. We used this
material to determine State legislative status.

We analyzed process , problem , and effective practice information from a total of twenty States
and the Distrct of Columbia (See Figure 1. ). In ten States, we conducted telephone interviews
and focus groups with seventy-six key child welfare and legal professionals to determne their
perceptions concerning specific State processes and problems. In order to gain a broad spectrm
of opinion , we interviewed child welfare administrtors, attorneys representing the child welfare
                                  4 , professionals involved in foster care review , attorneys
agencies, child advocates, judges
representing parents, and casework supervisors. .

In the remaining ten States and the District of Columbia where research or demonstration
projects are ongoing or have been completed, we examined wrtten documents. These provided
more detailed descriptions of processes and emerging effective practices.
                                     FIGURE 2

                Basic Termination of Parental   Rights Process
                                                                 OUTCOMES
                                                        Child R.mal.     Chd R.moved
                                                         In &y.t.",      fro", &y.'.'"

SI' goa'i lor               -'or
   ramlly                   Pf-'                                            11,,,n­
 tr..lmet                   ..wee.                                           10 famiy




                                                          "".'10"
                                                          aI'arnall..e
                                                          plce..,.


                                                          tn8.ti08'8
                                                          pI-'.
                                                          8I',rR8l1W'




                                                         a.gieorn..
                                                           eClp,oo
                                                           pIe..n,




                                                                             Rot",n
                                                                              to leniy




                                                           tr"I"'OI.e
                                                           an"NiIIW1
                                                           placemetS




                                                         a'OIn/eOl'''
                                                            aaoptlO
                                                           placemnt
                                                FINDINGS

OVERVIEV\' OF THE PROCESS FOR FREEING CHILDREN FOR ADOPTION

The ternlinatio!1 of parental rights process is guided by State law and State agency policies.
Thus , wide variations exist in the models and methods employed in the various child welfare and
judicial systems to free children in foster care for adoption. The State survey undertaken for this
report shows, however, several elements in the service and adjudicatory processes are common
to most jurisdictions. These common elements are shown in Figure 2.

Conceptually, we can divide the process of moving children from foster care to permanent
adoptive homes into three sequential stages. First, having been removed from their families as a
result of abuse, neglect , abandonment 6 or some other reason , children spend some time in the
care of child welfare agencies. During the time in foster care, the agencies develop pernlanent
plans for the children. For children whose pernlanent plans are adoption, implementation of
these plans begins with the second stage legal actions by the State to terminate parental rights
Of to secure voluntary relinquishment of those rights from the parents. Once the rights and
responsibilities between parents and fheir children are severed, the children enter the final stage
of the process , legal adoption by another family.

The focus of this report is the second stage,                                  (TPR), the shaded
                                                  termination of parental rights 



section of Figure 2. This legal process cannot be considered in isolation , however. As the
diagram illustrates, the three stages of the process are interdependent. The success and
timeliness of actions to free children for adoption are directly related to I) the sufficiency and
validity of the groundwork laid during the preceding time in foster care, and 2) the reliability of
the system in delivering adoption placement services once parental rights are severed.

Petitioners to termnate parental rights must prove to the court 1) the child was removed for good
cause, 2) legally sufficient reunification efforts were unsuccessful and the child cannOt return
home safely, and 3) ending legal ties between the child and family wil lead to a better, more
stable home for the child. During the court proceeings, the States must present clear and
convincing evidence on each of these three criteria. In regard to the first two criteria, the child
welfare agency must build the body of evidence concem ng parental inability or inadequacy
while simultaneously providing assistance to reunite families. The evidence for the third
criterion rests largely upon the reputations of public and private adoption placement agencies for
finding suitable homes for children freed for adoption.
                          ./..
                            ..
                             ..   ,.......
                              .....
                                  .
                                  "..  . ""
                                    " ..           / ,// ,/
                                              .... / ..
                                                     /
                                                     ....///. ..
                                       - ....'/.. ,/...
                                /-----.-....--..---.---.--       ./   ..
                                                                       .....
                                                                      ....      . ...........
                                                                          ,. '" .. ..., ' ..., ,, ..,......
                                                                                ..,'..p'"",,         """'
                                                                                                  , .........




                                                      FIGURE 3

Time Spent in Foster Care by Children with Adoption                                                                              Plans



Time In Months


                                                                                                                 Steps To

                                                                                                                 Adoption
                                                                                                                Adoption After
                                                                                                                Further Delay to
                                                                                                                Identify Home

                                                                                                                Adoption Into an
                                                                                                                Immediately Available


                                                                 /iia
                                                                                                                Home


                                                                                                                Court Grants Petition

                                                                  /llla
                                                                      \\?:(\/\\/ff\/fl1I
                                                                                                                Petition for
                                                                                                                Flied
                                                                                                                               TPR

                                                                                                                Adoption Determined

                                                                                                                to be the Permanent
                                                                                                                Plan




            30 Months 





                                                                                                                Child Enters
                                                                                                                Foster Care


         Lower Estimate                                          Upper Estimate

STATES DO NOT ROUTINELY TRACK DELAYS IN FREEING CHILDREN FOR
ADOPTION, BUT THERE IS EVIDENCE CHILDREN REMAIN IN FOSTER CARE
TOO LONG

The interrelationship of the three stages for moving children from foster care to permanent
adoptive homes is also important when we consider delays in completing them. The time spent
hy the child welfare and judicial systems to complete required activities expand the total time
children and their families remain under the uncertainties of foster care. Comparable, complete
data on time- in-care for children who do not return home, and information concerning the time
involved in the termination of parental rights process are not generally available. However
based upon studies conducted in 11 States included in this analysis, we have some general
indications of the timeframes from entering foster care to final implementation of permanent
plans of adoption. Figure 3 presents information collected from these States.


As early as six months after children enter foster care, child welfare agencies in most States may
begin considering alternatives to family reunification. In actual practice, children are in care for
periods ranging from 6 to 54 months (4. 5 years) before agencies or courts specify adoption as
their pemlanent plans. In most of the States providing detailed information , children spend an
average of 30 to 42 months (2. 5 to 3. 5 years) in foster care before the determination is made that
adoption is the best option for them.

I n general , the process of moving from identification of adoption as children s long-term goal to
filing petitions with the courts to terminate parental rights takes between 3 and 6 months. Some
studies report, however , that backlogs in State or Distrct attorneys ' offices result in delays in
filing of 9 to 12 months. In some States, case reviews have uncovered cases in which children
had an official plan of adoption for more than three years, but no petitions had been fied.

Once petitions have been filed, case studies indicate that it can take from 3 to 12 months for the
courts to hear evidence on those petitions. The average of the State average times to complete
the court process from the filing of the petition until the court renders its findings is about 7.
months. If families appeal lower court decisions, final dispositions of the appeals can take
anywhere from 2 months to 24 months. (The time ranges for this activity are not included in the
graph).

Once the courts alter their legal status, children then must wait for the completion of the
adoption process. In many cases, children are already conditionally placed in potential adoptive
settings before the court renders its decision. These children can be fomlally adopted only after
official waiting periods of anywhere from 3 to 12 months. (See " Adoption into an Immediately
Available Home " in Figure 3). This delay serves two purposes: 1) it protects the final adoption
from the threat of appeals, and 2) it allows adoption staff to observe and evaluate the placement.
                    ..,..
                      ... .......
                          ........  ................................,....
                       .....................
                        .....................
                           .............
                                       .....
                                   ......           .............
                                                  .............
                                               ..............
                                         ........
                                              ...         ......
                                                      .....
                                                  ""''''''''''''''    ..............
                                                  .........................
                                                   ........................
                                     ...................................
                                                                   ..........
                                                                     ......
                                                                    .......      .... .....
                                                                              .......
                                                                               ......
                                                                     .............
                                                               ...........      .....          .................
                                                                                             ..........
                                                                                          ............  .........    .......
                                                                                                                    ..........
                                                                                                      .......................
                                                                                          ..................   .........      ..............
                                                                                                                         ...................
                                                                                                                ................    .........
                                                                                       ....................................................
                                                                                       .................................................
                                                                                                         ...............................
                                                                                                        ........                ........ ......
                                                                                                                 ............................
                                                                                                                  ......  ....................
                                                                                                        ..........".........
                                                                                             ..............                   ............
                                                                                                                      ..........         .....   ..........
                                                                                                                                           .....................
                                                                                                                                  .............
                                                                                                                                 .............
                                                                                                                          ........ ...........    .....................
                                                                                                                                                  ..........                 .,
                                                                                                                                                                   .........................................
                                                                                                                                                                            ......
                                                                                                                                                                            ......................................
                                                                                                                                                           ...............................
                                                                                                                                                             ....................
                                                                                                                                                   ................................
                                                                                                                                                                    .....................
                                                                                                                                                      .........................,         ........    ......................
                                                                                                                                                                                                 .....
                                                                                                                                                  "'''''''''''''''''''''''''''''''''''''''''''''''''    ...............   ......
                                                                                                                                                                                                           ..................
                                                                                                                                                                                            .............................
                                                                                                                                                                                                        .....................
                                                                                                                                                                                                                      ..........
                                                                                                                                                                                                      .....................

                                                                                                                                                                                                             ...........
                                                                                                                                                                                                         ........  ........
                                                                                                                                                                                                                       ..........
                                                                                                                                                                                                                             ......




                                                                                                 TABLE 1

Major Components Of State Termination Of Parental Rights Statutes
                      SPECIFIC PROCEDURAL                 EVIUE!\CF
     STATES                                                           GROUNDS                   ! EQUIREMENTS - REQl;IRED
     Alabarna ....... .......... ........................... .x ......."......................... ............. .x ..... ............. ..... ........ .............. .....

     Alaska ..                                                                                                             .x ............. ............. ... .......... ... 

     Arzona ..... ..........................................       .x .................................................    .x .......... ... ..... ..... ...... .......... ... ........

     Arkansas ..                                                   .x ...............................................
     .x .... .......... ................ ...... ..... ........

     Calif om ia .................. ........ ........... ......... .x ....... ..................'''' ..... ...................................................................... x

     Colorado.. ........... .......... ........................ .x .......................................... ........ .x ....... ..............,....... .....................

     Connecticut ..... ...................................... .x ............. ..................................... .x ............. """"" ........ ........... ........

     Delaware....... .............. ..... .................... .x ................................................. .x ....... .................. ............ ..............

     Florida....... .............. ........................ ..... .x .................,........... ................ ..... .x ..... .................. ...........................

     Georgia.......... ..... ................... ................ .x ..........."...... -                                 .x ....... ................ ...... .....................

     Hawaii .......                                               .x ................................................. .x ....... ...................... ................ .....

     Idaho ..... ........................................ ......... .x                   ..........................................
                      .x ..... .......................... ... ........ ..... ...

     Illinois.................................... ............... .x ..... .......... 

     Indiana......................................... ......... .x .,... ............. ................... .............. ., 

     Iowa.. ..... ........................ .......... ............. .x .......                                               .x ..... .................................. ...........

     Kanas ...............                                          .x ............ ........ .......... ................... .x ............. .....................................

     Kentucky..................... ..... ........... .......... .x .... ....... ........ ............... ..... ..... ... .x ............. .....................................

     Louisiana.................... .....                            .x .... .......... ...................... .......... ... .x .... .."................................... .....

     Maine............................................. ....... .x ..... .......................................... .x ..................................................

     Mar land                                                       .x ...............................................
      .x ............. .......... ........ ...... ..... ........

     Massachusetts .......................................                                                                   .x .................. ................................ .x.

     Michigan.............................................. .x ..............,                                               .x ..................................................

     Minnesota ................................. ........ .... .x ............ ...................... .......... . .x ..... ............................................

     Mississippi.................. '                                .x ............... ........... ..... ...... ............ .x .. ........... .....................................

     Missouri....................... ........ ........ ..... .... .x ..                                              .x ..... ...... ..... ................................

     Montaa.......................... ............ ...... ....    .x ..                                              .x ..... 

     Nebraska .............................. .......... ..... .x ................. .......... ..... .......... ..... .x ..... ........................ ................ .....

     Nevada............................................... .... .x ..... ......... ...... ..... ........ ........ ....... .x .. ...............................................

     New H arpshire............... ..........,..... ...... .x ....... ........ ...... 

     New Jersey............. ........ ...................... .x ................................................
    .x ................. ..... .............. ..............

     New Mexico ..... ........ ............................. .x ...............................................
     .x .................. ........ ................ ........

     New York .............................................. .x  ................................................
   .x .................................. .......... .....

     North Carolina........................ ........ ....    .x ..... 
                                              .x ..
     North Dakota ............ .......,............. ...... .x ..... ........ .......... ........................... .x .. ........................... .....................

     Ohio .......                                            .x ......... ............. ............. ............. .x ....... ................ ... ........ ..... ........ ...

     Oklahoma ..... .,... .............                                              .x .. ........ ................ ........                              .x ....................... ........... ........ .........

     Oregon ....... ........ ... ........ ..... ....,. ........ ...... .x ................. ............ ................... .x ....................... ................... ..... ...

     Pennsy Iv ana.......................................... .x .............. ................................... .x ...................................................

     Puero Rico ..........                                      .x ..... ........................................ .x .............. ... ........... ........ .............

     Rhode Island.. ..... ........ ........                      .x ..... ........                                     .x .............. ... ........ 

     South Carolina.......... ............................ .x ............... ............. ..................... ...... ........ 

     South Dakota............................... .......... .x ......... ..... ............... .................... ....... 

     Tennessee................................. ............. .x .................... ........ ........ ..... ........ .x ......................... ........................

     Texas......... ........................................ ... .x ....... ...... ........ ..... 

     Utah....................................................... 

     Vermont ....................... ........ ................... ..... ............................................... 

     Virginia ............... ........... ........ ..... ........... .x .............................. ................. .x ....................... ...... ........ ..... ........

     Washington.. ............ ........ ..................... .x .......................... ........................ .x ................. ........................ ........

     West Virginia .................,............. .......... .x ................................................
   .x ""'''''''''''''''''''''''''''''
     Wisconsin .................... .......... ........... .... .x ................................................. .x ................. ..... ........... ................

     Wyoming ....... .............. .......................... .x ...............................................
   .x ....................... ...... .......... ........ ...


        Statutes specify particular parental conduct or conditions that warant terination of parental rights.

     3 Statutes contain at least basic hearing and notice requirements.
        Statutes require clear and convincing evidence to grant a petition for terination of parental rights.
Children for whom a home is not already identified must be matched with adults wanting to
adopt. Estimates concerning the time necessary to find an adoptive home for children not
adopted hy relatives or foster parents averaged 12 to 18 months. Children then must also wait
for completion of an official waiting period, usually 6 to 12 months, before the adoption is final.
Thus, the homefinding process adds average estimated times of 15 to 18 months to the total
process.

Finally, adoptive parents must petition the court to adopt the children in their care. Once these
petitions are granted and proper notification is provided to State vital records offces , the
children officially belong to families again. On average, children who are adopted leave the
foster care system between 42 and 66 months (3. 5 and 5. 5 years) after they enter.


STATES HAVE MADE LEGISLATIVE PROGRESS

In developing one of the initial demonstrations of pem1anency planning techniques, planners in
the State of Oregon in 1977 identified several barers to establishing permanent homes for
children. Project staff noted that an essential element in a systemic approach to pennanent
                                                                                       8 Few

planning was a sound State statute to support casework and judicial decision,.making.
States had more than basic enabling legislation in place prior to the passage of PL 96- 272 in
1980.

Since the passage of PL 96- 272, the States have made significant progress in this area. (See
Table 1). The majority of the States have statutes in place that directly require State agencies to
make " reasonable efforts " to maintain children in their own homes. , when removal is
necessary, to reunite families. All but 3 States have statutes describing specific grounds for
tem1inating parental rights, and 34 States regard time in foster care in excess of 1 or 2 years as
grounds for dissolving legal bonds. Forty- four states spell out at least some basic procedural
requirements including notice requirements, right to counsel, and hearng requirements.


BUT BARRIERS STILL REMAIN TO FREEING CHILDREN FOR ADOPTION

Despite the legislative foundation provided by PL 96- 272 and the new State statutes enacted
after its passage, barrers to the timely, predictable resolution of parental rights stil exist.
Generally, States are able to free children for adoption when they petition the courts. The major
concerns are the time it takes to complete the petition process, and whether States are failing to
file petitions for some children for whom adoption is appropriate.

For this report, we have divided barriers that delay or otherwise impede freeing children for
adoption into two groups: those primarily associated with administration in the agencies
delivering foster care services, and those associated with the legal and judiCial systems involved
in adjudication of termination petitions.
                                                    ))                                                g.,




ADMINISTRATIVE BARRIERS IN THE CHILD WELFARE DELIVERY SYSTEM
CAUSE THE MOST EXCESSIVE DELAYS IN FREEING CHILDREN FOR ADOPTION

SIllIes Are Not Timely or EffectiJ'e in Meetillg " Reasonable Efforts to Reunite Families
Requirements Which Are Prerequisites to Permanent Placement

Under PL 96- 272 , a state cannOt obtain Federal foster care funds for a child unless prior to
immediately following removal of the child from his/her home the courts rule that reasonable
efforts to maintain the child in the family were made. Continued Federal funding for foster care
maintenance is contingent upon a State making reasonable efforts to reunite families. The
specific definitions of " reasonable efforts to maintain " and " reasonable efforts to reunite " are left
to the States.



PL 96- 272 does not address requirements for termination of parental rights. However , States
through legislation , and State Court systems through official procedures and practice, use the
 reasonable efforts " language of the child welfare legislation in tern1ination of parental rights
proceedings. In most States, the standard for insuring protection of parents ' due process rights in
tem1ination of parental rights proceedings is whether the State has made " reasonable effons to
reunite " th e child with his/her family. State courts wil nOt termnate the rights of parents unless
the State agency can prove that the State has made adequate attempts to assist parents in
resuming care for their children.

Over 75% of the respondents in the State survey indicate that the inability of the child welfare
agencies to meet the " reasonable efforts " standard to the satisfaction of State courts in a timely
manner is the primary barrier 
 to implementing permanent plans of adoption.

Survey respondents cite a need for more specific parameters for the "reasonabl efforts
standard. Few States have in statUte a specific definition of what constitutes " reasonable efforts
to reunite. " Without such a definition, State agencies and courts are left without guidance
concerning the legally adequate level of help which they must provide to families in order to
guarantee that parental rights to due process have been met.

Respondents also contend that State child welfare agencies frequently remove children from
their parents and then cannot or do not provide adequate, appropriate social services and support
to remedy the conditions in these homes that brought the' children into care. The social services
and assistance made available, generally, are not seen as well- focused on the problems of
families and children. Treatment plans are crisis-oriented, and seem to be based upon only those
treatment methods which are most available and most familiar to agency personnel. Agency
policies do not insure that families can continue contact during the foster care placement to give
parents and children a reasonable chanc e at reunification. Further, respondents report that State
agencies rarely provide assistance to families to help them make use of available resources (e.
transportation , supportive counseling, or advocacy) or to continue visitation.

These service delivery shortcomings put some children in a double bind. In situations where the
States make little or no effort to rehabilitate families, children s chances to return to their parents
are sharly reduced. By the same token , these children cannot be freed for adoption by Other
parents because. hy not making sufficient efforts to rehabilitate families , the State agencies are
t'lIable to meet coul1 requirements meant to insure that terminating parental rights is equitable
the parents.



These problems with meeting the " reasonable efforts " standard delay implementation of
adoption plans for many children and prevent it for others. Agencies do not pursue and courts do
not grant petitions to ternlinate parental rights until State agencies develop evidence that they
have exhausted all conceivable possibilities for keeping families together. This can take an
enormous amount of time if the service effort is minimal at the start.

Consideration of Long- Term Placement Options for Children Is Delayed

Given that proving " reasonable efforts " is a time-consuming process in the best of
circumstances , respondents note that planning and laying the groundwork for pOtential legal
action should begin very soon after children are removed from their homes. Instead, key
decisions are often made and acted upon only after childfen have been in care for considerable
periods. The determination that a child may not return home is generally not made until after the
first 6-month review. Often , this option is not considered until after time- limits on " reasonable
efforts " to reunite have expired. Evaluation of the adequacy of the evidence in cases usually
does not begin until this decision is made. Respondents note that this delay in long-range case
planning sometimes results in lost opportunities to lay the groundwork for future legal actions.

Another serious problem is agencies ' failure to immediately collect and maintain information
about the location of relatives and missing parents who are not actively involved in family
treatment. Agencies frequently do not undertake searches for missing parents, whose
participation in termination proceedings is legally necessar, until such proceedings are
imminent. Also, staff do not routinely tr early in the foster care process to locate relatives who
might adopt children. By initiating such actions after children have been in care for considerable
periods, agencies create a double delay: fIrst, the petition and hearng processes must wait until
these activities are completed before proceeding; and secondly, these searches are likely to take
considerably longer when they begin with dated information.

Because the agencies do not consider long-term plans other than reunifIcation until some time
after children enter foster care, staff often do not confront parents with other possible outcomes
such as termination of parental rights and adoption until implementation of adoption plans
begins. Many respondents state that parental rehabilitation attempts begin only when child
welfare agencies make these possibil- ties clear to parents. Once parents show any effort to
improve the family situation , few agencies or courts are willng to continue severance attempts
until the success of these new efforts can be evaluated, halting the implementation of adoption
plans.
Limiled Ma1lageme1l1 Commitmenl and Lack of Staff and Services Playa                   Signifcant Role
fhe Failure 10    Make "Rea!wllable              Efforts


While policy and practice problems within the administration of the child welfare system have a
major effect on whether agencies meet the " reasonable efforts " standard, management.
commitment and resources play an equally significant role.

Respondents note that lack of management direction in State child welfare agencies results in
significant delays in implementing permanent plans. Many respondents , both within and outside
of State agencies , report that line staff frequently receive no guidance from administrators
concerning timely resolution of foster care cases. While agencies ' policies contain demands for
permanency planning, the specifics of these demands (e. g., rigorous treatment planning, timely
decision-making, and routine monitoring) are frequently not supported or enforced in practice.

Agency administrators have not shown great commitment to collecting and maintaining
information concerning implementation of permanent plans. Few States were able to provide
even basic data about termination of parental rights outcomes, and the limited data on processing
time that do exist usually are available only through the court system or through special case
review studies.

The lack of experienced, stable staff in State agencies who can handle the volume of foster care
cases further restrcts States ' ability to meet " reasonable efforts to reunite " tests. In order to
provide effective foster care and family services, the Child Welfare League of America
(CWLA)    Standards for Foster Family Service              specifies that caseworkers should be responsible
                                          9 By
for no more than 30 children.        contrast, 60% of the supervisors in this study note the
average caseloads of staff in their units exceed this recommended level. Agency and non-agency
respondents from urban areas report, and documents from varous States confirm, that foster care
staff frequently cary caseloads more than double the CWLA standard.

Related to the issue of high caseloads is high social service staf turnover rates. Respondents
report rates of 25- 35% per annum 
 in many jurisdictions. The high turnover leads to frequent
transfers of cases or long periods of service dormancy because cases are unassigned during
lengthy transitions. During these transitions, tratment and pennanency goals become unclear
and valuable information is lost. The sta in place frequently lack experience working with
children and families. A 1989 survey of national child welfare staf confirms that over 50% of
caseworkers have no previous experience working with children and families or in human
service agencies. 11 This reduces staff capacity to appropriately plan and manage services. It
also creates tremendous training needs for agencies.

Respondents also state the shonage of cenain services reduces agency ability to respond
adequately to family problems. In paricular they point out that the lack of adequate housing
brings children into care. For parents who need them, agencies usually do not have sufficient
substance abuse treatment resources, nor are they likely to offer services especially focused on
the substance abusing parent or the chronically negligent parent. Finally, there is a general
problem in securing transportation, affecting access to other services for parents living in rural
areas and urban centers without extensive public transportation systems.
                ,.




MANY BARRIERS AND DELAYS ARISE FROM THE LEGAL AND JUDICIAL
SYSTEMS

Case f)oclImelltatiollls Frequelltly Inadequate

Even when " reasonable efforts " are made by agencies to assist families in reunification , case
records often do not contain legally acceptable documentation of these efforts. Respondents
point to three specific causes of this problem: 1) case recording and collection of documentation
are time-consuming tasks that are not seen as contrbuting to family progress, paricularly when
as noted above caseload size strains staff ability to cary-out assigned responsibilities; 2)
frequent case transfers result in lost information or transitional periods in which no recording is
done; and, 3) caseworkers do not have training or routine advice in legal procedures and do not
maintain case records in a form that meets judicial standards for evidence.

Some States have attempted to insure that records are useable in court by instituting severance
units which have specially trained staff to prepare records for termnation proceedings.
However, these units do not generally become involved in record preparation until children
cases are well on the way to coun. If the State does not have severance units, children s cases
frequently stall due to inadequate documentation , unnecessarly delaying the implementation of
adoption plans. With or without such specialized stafs, children often spend needless time
foster care while agencies prepare and re-prepare the documentation necessar for legal action.

/mplemelltatioll of A doptio 11 Plalls   Often Stops with Pre-Petitioll Reviews

Following the model in public prosecution of criminal cases , public prosecutors in termnation of
parental rights cases reserve, or are given by default, the right to decide which cases will be filed
in court and to set the legal goals for the cases. In nine of the ten surveyed States, the ultimate
decisions about whether or not to undertae legal actions are made by public attorneys or by
committees on which these attorneys are the primar decision-makers. The key consideration
often becomes narowly focused on whether the agency or public attorneys believe the available
evidence is sufficient to guarantee the success of the States ' petitions, rather than on the social
service goals for cases.

Over one-third of the respondents, including some of the agency attorneys, report that
decision-making criteria tend to be very restrctive. In some localities, respondents report that
from one-third to one- half of all cases referred for legal action are returned to child welfare staff
as not appropriate for fiing. The attorneys do not seem to be opposed to terminating parental
rights. Rather, the issue appears to center on reluctance to pursue cases with uncertain outcomes.
In this climate, one negative ruling concerning specific procedural issues in one case , or an
adverse appellate decision , has an enormous impact on all subsequent case reviews.

While only a few of th States collect and organize statistics on termination outcomes , those that
do present a picture of frequent , almost routine, success of State petitions. The highest rate of
denial of petitions in any State is 20%. Five of the six States with such infomlation show less
than a 3% denial rate. Although attorneys for parents have become more aggressive in appealing
termination decisions, these increased appeals apparently do not result in a significant number of
overturned decisions. Exact statistics are nOt available, but respondents say only a few States
have had more than one or two reversals of lower court decisions within the last five years.

The Le al Resources AJ'ailable   for Child Welfare   Cases Are Inadequate

The legal staffs assigned to child welfare cases suffer from the same problems of high turnover
inexperience and lack of training, and unmanageable caseloads as child welfare staffs. Attorneys
responsible for child welfare cases are often the least senior members of public legal staffs.
They are frequently responsible for a host of other administrative and family law issues , as well
as parental rights questions. Respondents state this lack of experienced staff affects the process
in several ways: I) it causes backlogs in filing petitions because there are not sufficient
attorneys to review cases and prepare necessary legal documents; 2) it means that legal staff
often do not have the time or ability to assist child welfare staff, particularly in the early phases
of case planning, in preparng the proper groundwork for future legal action; and , 3) it results in
poorly prepared or argued court cases.

Scheduling and Conducting Court Hearings Delay Implementation of Adoption Plans

While in some States child custody proceedings are given priority for docketing and scheduling,
over half of the respondents report that scheduling hearngs is a serious delay. Respondents
identify several reasons for these delays:

      In non-urban areas of most States, child custody cases are heard by courts of general
      jurisdiction sitting in juvenile session. These case s, therefore , compete with all other
      matters before the court for docketing and may be interrupted at any time for other civil
      matters.

      Court dockets of most State courts are crowded, straining court personnel and resources.
      Having cases heard becomes a paricular problem when dealing with circuit courts where
      the problems with crowded dockets are compounded by the limited availability of judges.
      Since the passage of PL 96- 272, even specialized juvenile courts with permanently
      assigned judges have had to take on additional responsibilities for involvement in the child
      welfare system. However, respondents note that most coun systems have not received
      adequate funding to meet these responsibilities.

      The number of professional schedules that must be coordinated for hearings makes
      efficient scheduling extremely difficult. For even the most basic hearng, a judge must
      schedule hearings to insure the presence of one or two biological parents, three or more
      attorneys, a social worker , and one or more volunteer child advocates. If professional
      witnesses are required or foster parents and their representatives wish to playa role, the
      number of parties can grow to a dozen people.

Continuances (interruptions and rescheduling of hearngs) can further delay proceedings. Most
child custody proceedings, once on the court docket, wil be heard and decided in one day.
However, since few States have court procedures requirng unified hearngs (i. , continuous
Continuances (interruptions and rescheduling of hearings) can further delay proceedings. Most
child custody proceedings, once on the court docket, wil         be heard and decided in one day.
However, since few States have court procedures requiring unified hearings (i. , continuous
hearing of the evidence without interruption by other cases), respondents report cases not heard
in one session often extend over days , even months. Again , overcrowding in the courts and
scheduling diffculties are the prime culprits. Since all parties are reported to make aggressive
use of continuances as a legal strategy, such delays can become a major issue.

Judicial Bia.lles   or Illaction   Of   tell Result ill Delays

Respondents report that some judges in every State refuse to hear or grant termination of
parental rights petitions. Despite almost a decade of efforts by groups such as the National
Council of Juvenile and Family Court Judges, respondents in each State could name at least one
judge who believes children s best interests are always served by remaining legally tied to their
parents.

Of equal concern is the inability or unwilingness of the courts to define and apply limits on
 reasonable efforts to reunite. " A common judicial practice in many States is to " suspend
judgment " on some cases. In this practice, judges do not grant or deny petitions, but instead
order child welfare agencies to continue providing certain services for a specific period (usually
6 months). At the end of this period a new hearng is scheduled at which the judge will
determine if families have made sufficient progress to demonstrate they can be rehabilitated.
Respondents also report judges issue orders requiring agencies to make additional efforts to
assist families , or continue cases indefinitely while parents are given additional opportunities to
improve their functioning.

Another common practice is for agencies and their attorneys to time the fiing of petitions so that
certain judges do nOt hear cases. This minimizes the impact of judges whom agencies perceive
to be biased or unwiling to issue final dispositions on cases, but it also increases the time
required to implement adoption plans as cases wait to come before specific judges.

The Question of Whether Children Are Adoptable Is Asked SeJ erai Times During the Process

Judges and other professionals are hesitant to termnate parental rights unless they are assured
that the children so freed will be adopted. Respondents report that the determination of
adoptability is made several times in the process by different types of professionals with
different perspectives on what constitutes " adoptability. " Many respondents note that the
individuals making these determinations, often judges without experience in juvenile matters,
frequently have more limited views of which children can be adopted than experience indicates
is true.




The Legal Procedures ill MallY States Make COlltradictory Demands Oil State Adoption
Sen,ices

The termination of parental rights process itself imposes certain constraints on securing adoptiOil
placements for children. Judges frequently will not terminate parental rights until a specific
adoptive home is identified for a child. At the same time, agencies are prohibited from the most
    ressive home- finding methods (e. g., media advertising or placing the child' s picture or name
in recruitment materials) until children are legally free for adoption.

A few States avoid this conflct by separating the decision that parental rlghts should be
restricted from the disposition of the petition to terminate parental rights. Agencies have some
period after the initial finding that parents cannot regain custody to aggressively seek homes for
children. If a home is found, the tem1ination petition is granted; if no potential adoptive parents
can be found, the petition is denied but the rights to make major decisions on behalf of the child
are granted to the State agency or to another adult.


SOME STATES HAVE DEVELOPED NEW PRACTICES TO EXPEDITE FREEING
CHILDREN FOR ADOPTION

In efforts to deal with the issues noted above, several States have developed initiatives to
improve the timeliness and effectiveness of their termnation of parental rights process. Some
have worked well; others are stil in their demonstration and testing phases.

Creation of Specialized SeJ'erance Units

In Arizona and Oregon child welfare agencies have established severance units to prepare cases
for legal action. These units are composed of staffs with particular expertise and experience in
tne court process. The purpose of the units is to insure adherence to legally sufficient procedures
and documentation before the State fies petitions.

Amendment of Disjoillted Court Processes

The State of California has recently passed legislation to amend its juvenile court processes so
that parental rights questions are automatically considered as part of the judicial oversight in
foster care cases. Once the court reviews children s cases and either concurs with agency
recommendations that adoption is the appropriate permanent plan , or makes such dispositions on
its own, new action is not required of the agency to begin termination proceedings. Termnation
of parental rights hearngs are a continuation of the total court jurisdiction over foster care cases.
Grounds for removal , records of periodic reviews, and service histories stay before the court so
that past decisions are not re- litigated at each step and decision-making is consistent throughout.

Creatioll of all Expedited Trackfor Freeillg Certaill Children

Seventeen States have created expedited tracks for freeing children from families where the
provision of reunification services is clearly inappropriate, such as when a parent has been
criminally convicted of the death of another child. In seven States, the fact that a child is under
one year old may be used as grounds for easing the requirements for " reasonable efforts.
Pre- trial Mediation and Settlement

Minnesota has statutory clauses which pemlit pre-trial mediation and settlement of termination
disputes. In States where " open adoption " is allowed or other alternative permanent
arrangements are available, this offers a method of removing some adversarial elements from the
permanent planning process. Mediation offers the opportunity for negotiating adoption
placement details and increases the likelihood of voluntary relinquishment of parental rights.

Private Contractual Model of Legal Representation

As part of the Department of Health and Human Services demonstration effort in effective
practices for freeing children for adoption , the University of Michigan Law School Child
Advocacy Law Clinic has established a project to provide trained, independent counsel to county
social service agencies in pursuing termination of parental rights cases. Such legal counsel has
two unique features: first , attorneys follow a private model of legal representation , wherein the
role of the attorney is to advise his/her client on legal goals and strategy but leaving ultimate
authority for determining legal goals to the client agency; and second, these attorneys are
available to agencies throughout child dependency cases to advise staff on proper procedures and
records.

Mult- disciplinary Problem SolJ'ing and Training

Three other demonstration project areas are using multi-disciplinar problem-solving models to
secure cooperation among social service, legal , and judicial staffs to move children s cases
through the judicial system more quickly and smoothly. The provision of joint training to
judges, lawyers, and social workers concerning the needs of children and families , as well as in
the methods of permanency planning and implementation. is a key component in such projects.
                        RECOMMENDATIONS

 lalc Gover1l11e1l1s   should:

      Mandate by statute well- defined, expedited tracks for freeing children who will clearly not
      return home in a reasonable period.

For some children , reunification with parents is clearly not possible, i. , when parents have
clearly abandoned the child or when the only known pareI)t has been convicted of killing or
seriously injuring a child' s sibling. State termination statutes should specifically identify such
situations, and allow ternlination of parental rights without requiring a period of service
provision. As noted previously, seventeen States have such legislation. We recommend that
other States adopt similar legislation.

      Prescribe clear time and service requirements for " reasonable efforts " and provide
      adequate State funding for compliance.

Implementing permanent plans for children requires that, throughout children s time in care,
agencies be legally accountable for making and carying out decisions in a timely manner. State
laws should include time- frames and level of effort requirements for State agencies. Related
policy must prescribe clear case assessment, case plan, and level of service requirements. These
provisions will aid agencies and courts to make consist nt decisions about whether the State has
made appropriate and suffcient efforts to reunify families before determining that children wil
not be able to return home.

Once such legislation is put into place, States should then tie funding for social services in the
State to the level of assistance required to meet the " reasonable efforts " test for all families with
children in care. Unless " reasonable efforts " requirements are tied to actual service availability,
the State wil consign even larger numbers of children to indefinite periods of foster care.

      Provide adequate resources to enable State courts to hear and rule on child dependency
      cases in a timely manner.

Since the passage of PL 96- 272 , State courts have faced increasing pressure from child welfare
caseloads. However, few States have appropriated additional resources to meet these new
demands. More judges are necessary to rigorously monitor permanent planning efforts and to
hear child dependency cases. Further, the courts should be given significantly higher support
funds to purchase the additional professional expertise they need to decide what actions are truly
in the best interests of the children.

      Offer increased training on pemlanency planning, in general , and on termination of
      parental rights, in particular , for child welfare staff, judges, public attorneys, and the staffs
      of contractual service providers.
Personnel at all levels should receive more specific and accessible training on permanency
planning issues. Such training should be interdisciplinary when possible. It should focus on both
Ihe reasons and methods for pemlanency planning and provide information on principles as well
as specific skills. Current training models should be evaluated, and successful programs
replicated.

The Adminislratioll for Childrell   Youth and Families (ACYF) should:

      Serve as an infornlation clearinghouse on permanency planning training and effective
      practices for implementing pemlanent plans.

Throughout the inspection process we were repeatedly asked by respondents for information
concerning problems and practices in other States. While many organizations have developed
training, there are gaps in covered topics, such as permanency planning for special populations
of children and families , and permanency planning roles of specific professional groups. The
lack of a central clearinghouse for permanency planning training and practice results in failure to
identify training needs , and lack of full dissemination of effective practice models. ACYF, with
its responsibility for overseeing PL 96- 272 implementation , should serve as such a clearinghouse
for information and training on permanency planning.

      Explore staff retention strategies. Disseminate the results of such exploration to the States
      and agencies, and provide training and technical assistance for implementing appropriate
      strategies to the States.




The inability of child welfare agencies to hire and retain experienced staff is a major impediment
to quality child welfare services. ACYF should encourage and sponsor efforts to identify
personnel and support methods to attract capable social work and legal practitioners to child
welfare services, and to retain these individuals once they are found. ACYF should actively
disseminate staff retention information and encourage States to implement retention programs by
providing training and technical assistance to State agencies.

      Through the Department s discretionary funding authority, provide seed monies for
      implementation of treatment programs that deal with current family issues.

Respondents continually point to increasing levels of drg dependency, chronic neglect, and
homelessness as the roOts of many of the problems that result in children entering foster care.
Practitioners note that efforts to reunify families frequently fail because the underlying
addictions or psychological problems have not been adequately treated, and because assistance
to remedy other family problems is not appropriately designed to help the substance abusing,
neglectful , or homeless parent. Some adjustments in practice methods and services are needed.
ACYF is in a unique position to encourage these new treatment models.
                         ,"     , "





IHm' c   quickly to complete and implemenl the national child welfare data base.

Thl' Adoption Assistance and Child Welfare Act of 1980 (PL 96- 272) called for implementation
o( a National Child Welfare Data Base. Ten years later the collection system for comprehensive
information is still not in place.

The lack of consistent national data on child welfare services and processes impedes any effoI1 to
identify common problems in assisting families and children who require foster care services.
Planners and administrators do not have sufficient information to measure the effect of policies
and programs on families and systems.

NOTE: Implementation of these recommendations would result in cost increases to both
      Federal and State governments. However, these increases could be at least partially
      offset by savings in foster care maintenance costs and long-term administrative costs
      resulting from reductions in the time children spend in foster care. Please refer to
            Appendix A        Federal Costs Offset.




DEPARTMENTAL COMMENTS

We received comments from the Office of Human Development Services (OHDS), the Assistant
Secretary of Planning and Evaluation (ASPE), the Assistant Secretary for Management and
Budget (ASMB), and two external agencies. Both OHDS and ASPE concurred with the
recommendations and offered suggestions for providing clearer, more detailed language on
certain findings or recommendations. ASMB , while generally supportive of the findings,
believed greater emphasis should be placed on the costs associated with implementing the
report s recommendations. On the basis of the reviewers ' suggestions, we have made several
modifications in the report to clarfy some sections and to make important distinctions in others.
Please refer to Appendix B 010 Response to Deparmental Comments, " and to Appendix C
which contains the full text of all comments.
. _                                        , "	                   , "





                                                              ENDNOTES

             See, for examples, Maas, Henry S. Children in Long- Tern1 Foster Care, ChiLd We(fare
             4X (June, 1'1(9): pp. 321- 333; Fanshel , David and Shinn , Eugene B. ChiLdren in FOSler
             Care:    LongilUdinallnvestigacion New York: Columbia University Press , 1978.

                            Characteristics of Children in Substitute and
             Tatara, Toshio, 
                                                           StatisticaL        Adoptive Care:


             Summary of the \lCIS NationaL ChiLd                       Washington, DC: American
                                                                          Welfare Data Base,


             Public Welfare Association , 1990, p. 77.

             Olsen , Lawrence                 Predicting the Permanence Status of Children in Foster Care,"                          SociaL
             Work Research and Abstracts                      18 (Spring, 1982), pp.           9- 20.


             We were unable to interview a representative of the judiciary in Arizona.

             A representative of the Foster Care Review Board in States with such an organization was
             interviewed.

             Approximately 70 percent of foster children are removed from their families due to abuse,
             neglect or abandonment. See Tatara op. cit., 
 p. 46.

             The figures graphed in Figure 3 are the highest and lowest of the individual State average
             times provided in the State studies of tern1ination of parental rights processes. The
             adoption placement figures are estimates provided by State administrators. The cumulative
             figures are the totals of the lower and upper averages, and not necessarily the cumulative
             average time for the process in anyone State.

             In the discussion which follows, we also have included for some activities and for the
             complete process smaller ranges which include completion times for more than half of the
             States providing the information.

             Regional Resource Center for Human Services, 
                              Permanent Planning for Children in
             Foster Care. A Handbookfor Social                           Workers,       Washington , DC: DHEW, 1977 , p. 6.

             Child Welfare League of America, 	                    Standards for Fqster Family Service, 
                    Washington , DC:
             Child Welfare League of America , 1975, p. 91.

      10.	   See , for examples, Nebraska State Foster Care Review Board,                     Looking Outfor the
             Children: Sixth AnnuaL Report Lincoln , NE: December, 1988; Association for Children of
             New Jersey,        SpLintered Lives, 
          Newark , NJ: June , 1988; Senate (CA) Health and Human
             Services Committee and Senate Select Committee on Children and Youth Hearing                                              on
             Impact of Substance- Exposed Infants on Child Welfare Services, Sacramento , CA:
             California Legislature, October 20, 1989.
I L	   Lieberman, A. , Russell , M. , and Hornby, H. National Survey of Child Welfare Workers
       1988 , POI1land, ME: University of Southern Maine, 1988 , as referenced in Ooms
       Theodora The Crisis in Foster Care: New Directions for the 1990' s, Background Briefing
       Report and Meeting Highlights, American Association for Marriage and Family Therapy,
       Washington , DC, January, 1990 , p. 17.
                           , ", " , "
                                ),




                                                  BIBLIOGRAPHY

Barh , Bar, " Outcomes Under Pennanency Planning,                               Social Services Review 
        61 (March
1987): 71- 90.

Besharov , Douglas, " The Misuse of Foster Car: When the Desire to Help Outrns the Ability
Improve Parental Functioning, Family Law Quarterly 
 20 (Summer, 1986): 213- 231.

                                       Sanrosky       v.   Kramer:   An Unfonunate Misunderstanding, Child Abuse
and Neglect 
        7 (Winter, 1983): 117- 122.

Blumenthal, Karen and Weinberg, Anita (eds. Esrablishing Parental Involvement in Foster
Care Agencies, 
 New York: Child Welfar League of America, 1984.

Cahalan , Margaret, Cook , Ronna, and Dodson , Diane, Comparative Study of Case Review
Systems Phase II: Dispositional Hearings National Survey,  vol. 1 , Washington, D. C.: Westat,
Inc. , and the National Legal Resource Center for Child Advocacy and Protection, American Bar
Association , 1983.

Chisolm , Roben Pennanent Planning and Child Placement Law and Policy, Journal of
Comparative Family Studies 
 18 (Summer, 1987): 207- 230.

Coyne, Ann , Russell , Robin, and Stin, Carol,                        Idenrifing Systemic Delays in the Adoption of
Developmentally Disabled Children in Foster Care,                            unpublished paper, State of Nebraska Foster
Care Review Board, 1990.

Dodson , Diane and Hardin , Mark, Foster Children in the Courts, 
                             Newton Upper Fals, MA:
Butterworth Legal Publishers, 1983.

Downs, Glen, Downs, Susan, Emlen , Arthur, Lahti, Janet, and McKay, Alec,                                    Overcoming
Barriers to Planning for Children in Foster Care,                          Portand, OR: Regional           Research Institute for
Human Services, Portland State University, 1978.

Fanshel , David, and Shinn , Eugene, Children in Foster Care: A Longituinal Investigation,                                   New
York: Columbia University Press, 1978.

Fein , Edith, " Outcomes of Permanency Planning for Childrn, Child Welfare 
 62 (1983):
485- 557.

GAO (U. S. General Accounting Office), Implementation and Effects of Foster Care Reform,

GAO- PEMD- 89- 17, Washington, DC: August, 1989.


Harson , Michael                  Why Terminate Parental Rights?"              Stanford Law Review            35 (Februar,
1983): 423- 496.
Hardin, Mark Several Perplexing Legal Issues Raised by the Adoption Assistance and Child
  clfara Act of 1980, 
 Washington , DC: National Legal Resource Center for Child Advocacy and
Protection , 1981.

Hubell , Roben, Foster Care and                          Familes:    Conflicting Values and Policies,                   Philadelphia, PA:
Temple University Press, 1981.

Knitzer, Janet, Allen , Mar Lee, and McGowan, Brenda,  Children Withouc Homes:
Examination of Public Responsibilty co Children in Out-of-Home Care, Washington , DC:
Children s Defense Fund, 1978.

Lincoln , James, " A Model Statute for Tennination of Parental Rights,                                          Juvenile Justice


(November, 1976): 7- 12.

Lowery, Marcia, " Derrng- Do in the 1980' s: Child Welfar Impact Litigation After the Warn
Years Family Law Quarterly    20 (Summer, 1986): 255- 280.

Maas, Henry, " Childrn in Long-Tenn Foster Car,                                       Child Welfare         48 (June, 1969): 321- 333.

Maas, Henry, and Engler, Roben, Jr.,                        Children in Need of Parents, 
                  New York: Columbia
University Press, 1959.



McMurt, Stephen Overcoming Barriers CO Adoption Among Children in Substitute Care,
Tempe, AZ: School of Social Work, Arzona State University,                                            1989.


Meezan , Wiliam and Shireman, Joan,                          Care and Commitment, 
                     Albany, NY: State University of
New York Press, 1985.

Minnesota Depanment of Human Services,                                Termination of Parental Rights: A Real and
Grievous Matter                unpublished, 1986.


Murry, Lawrnce, " A Review of Selected Foster Care- Adoption Research from 1978 to
mid- 1982,            Child Welfare        63 (1984): 113- 124.


National Council of Juvenile and Family Coun Justices,                                       Judicial Review of Child Placement
Deskbook,         unpublished, 1981.


Neal , Tommy, " Termination of Parenta Rights: State Legislative Report 14, " National
Conference of State Legislatures, 1989.

Olsen , Lawrnce, " Predicting the Pennanence Status of Childrn in                                             Foster Care,          Social Work
Research and Abstracts                   18 (Spring, 1982): 9- 20.


Ratterman, Debra, 
                                       Washington, DC: Legal Resource
                                 Reasonable Efforts: A Manualfor Judges,
Center for Child Advocacy and Protection, American Bar Association , 1987.
                    , "
                                                           , "




 Regional Resource Center for Human Services Permanent Planning for Children in Foster
 c;are: A, Handbook/or Social Workers, Washington , DC: Deparment of Health , Education and
 Welfare, 1977.



 Seaberg, James, " Reasonable Efforts Towar Implementation of Pennanency Planning, Child
 Welfare      65 (September/October, 1986): 469- 479.

Schetky, Dianne , Angell, Richard, and Morrson , Carl Parnts Who Fail: A Study of 51 Cases
of Tennination of Parntal Rights,                     Journal of the American Academy of Child Psychiatry 


(1979): 366- 383.

Seltzer, Marcia and Bloksberg, Leonard, " Pennanency and Its Effect on Foster Childrn: A
Review of the Literature, Social Work 
 32 (JanuarlFebruar, 1987): 65- 68.

Shennan , Edmund, Neuman , Renee, and Shyne, Ann                                    Children Adrif in Foster Care, 
     New York
NY: Child Welfare League of America, 1973.

Stein , Theodore and Comstock , Gar, Reasonable Efforts: A Report on Implementation by Child
Welfare Agencies in   States, Washington, DC: National Legal Resource Center for Child
Advocacy and Protection, American Bar Association, 1987.

Stein , Theodore, Gambrill , Eileen , and Wiltse, Kennit,                             Children in Foster Homes,        New York,
NY: Praeger Prss,  Inc., 1978.

Sosin , Michael       Administrative Issues in Substitute Care,
                         Madison , WI: University of Wisconsin
Press , 1986.

               Characteristics of Children in Substitute and Adoptive Care: A Statistical
Tatara, Toshio, 


Summary of the VCIS National Child Welfare Data Base,     Washington , DC: American Public
Welfare Association , 1990.


Wald, Michael State Intervention on Behalf of Neglecte Childrn: Stadas for Removal of
Children from Their Homes, Monitoring the Status of Childrn in Foster Cae, and Tennination
of Parental Rights, Stanford Law Review 
 28 (April, 1976): 623- 629.
                                                                     STATE REPORTS


 California

 Senate (CA) Health and Human Services Committee and Senate Select Comminee on Children

 and Youth Impact of Substance- Exposed Infants on Child Welfare Services, Sacramento,

 California Legislature, October, 1989.


Kentucky

Kentucky Deparment of Social Services,   Report of the Termination of Parental Rights
Demonstration Project Survey of Process Delays, Franord, KY, May, 1989.

Louisiana

Stein , Theodore, Del A.                   v.   Edwin Edwards Casereading,                       New York, NY, American Civil
Liberties Union , 1988.

Minnesota

Child Protection System Study Commission,                                      Final Report of the Commission, 
       St. Paul, MN,
Februar, 1990.



Minnesota Deparment of Human Services, 
                                     Permnency Planning in Minnesota,            S1. Paul , MN,
March , 1989.

Michigan

University of Michigan Law Center,                               Proposalfor Federal Demonstration                 Fund: Termination      of
Parental Rights, 
          September, 1988. 

Nebraska

Nebraska State Foster Care Review Board, 
                                   Looking Out for the Children: Sixth Annual Report,
Lincoln , NE, December, 1988.

New Jersey

Association for Children of New Jersey,                                Splintered Lives, 
         Newark , NJ, June, 1988.

New Mexico

Stein , Theodore, Joseph A V. New Mexico Department of Social Services Casereading,                                           New
York , NY, American Civil Liberties Union , July- August, 1988.
                                  APPENDIX A

                                   FEDERAL COSTS OFFSET

We recognize that our recommendations for States to tie resources to strct time and service
requirements, provide additional court resources, and enhance trning wil incrase State and
Federal costs. It is likely, however, that at least some (perhaps all) of the additional service and
training expenditures could be offset by savings in the foster car program.

We believe our recommendations would result in more timely adoption of foster children who
cannot return home. While we are unable to preict how much faster children wil be adopted
the process for tenninating parenta rights -is made more rational and timely, we can  ilustrate the
savings in foster care costs that would result if time in foster car was reduced by one year. On
average, children who leave foster care for adoptive homes in the States reviewed for this report
do so between 3. 5 and 5. 5 years after they enter the foster car system. According to the
American Public Welfare Association s Voluntar Child Infonnation System, the medan time in
care for all children in FY 1986 was 1. 5 years. Funher, as shown in Figure 3, the
implementation process for adoption plans can be completed in an average of 30 months if the
system works at its most .effcient pace. Therefore, using the reduction of one year in foster car
as the basis, it is not unreasonable to ilustrte the potential savings offset.

If we assume that the time spent in foster care by children with a pennanency plan of adoption
wil be reduced on average by one year through    implementation of these recommendations, the
Federal foster care maintenance costs would be reduced by . $37.4 milion. States could achieve
similar savings in foster care expenses.
Additional Federal savings could also result in reduced administrative costs. A recent review by
the Offce of Audit Services, OIG, indicated that about 80% of foster car administrtive costs
are for child placement-related services. (See Management Advisory Repon: CIN- 90-00274).
Therefore, reduction of time in car for these children would afect foster care administrtive
costs. Savings of $51. 5 milion in administrtive costs could result from the one-year reduction
in foster car.

Since title IV-E also covers costs for adoption assistace for special nees childrn , removig
such children from the foster care system into adoptive homes mitigates the savigs realized
more timely placements. Federal costs for subsidized adoptions ar about one- third the costs of
foster care. However, we cannot estimate the percentage that wil go into subsidized adoption.
In our savings estimate we took the more conservative approach of assuming that al would
indeed receive such subsidies, resulting in $9. 9 milion in subsidies.

Total one- year Federal savings for maintenance payments and administrative costs are
estimated at $79 milion ($37.4 millon + $51.5 millon - $9. 9 milion).
Savings Calculation



The one- year savings calculation was derived as follows:


       Maintenance Payments

      Total number of foster care childrn covered      by   Title IV-E,   1988 = 120,   00.

      (Data from OIG report A- 90- (0274)


      Annual Federal costs per child for foster car    maintenance = $4       500.

      (Data from OIG report A- 90- oo274)


      About 13% of children in foster care have pennanency plans of adoption. Therefore, the

      total number of children with adoption plans = 15, 600.

      (The 13% figure is for FY 1985, as cited in the American Public Welfare Association

      publication listed in ENDNOTE #2.


      Total annual foster car maintenance costs for children with adoption plans = $70.
      milion ($4 500 x 15, 600).


      Federal title IV- E adoption assistance maintenance payments for 35, 00 subsidize

      adoptions totalled $75 milion in 1988. Therefore, title IV-E adoption assistace payments

      averaged $2 100 per child in 1988 ($75 million! 35, 00 = $2, 1(0).

      (Data on adoption assistance payments from the Offce of Human Develop-ment Services)


      Total annual adoption assistance maintenance payments assuming that al chidren with a
      pennanency plan of adoption require and ar eligible for such subsidies = $2, 100 x 15, 600
      = $32. 8 milion.


      Maintenance cost reuction   = $70. 2   milion - $32. 8 milion = $37.4


       Administrative Costs

      Annual per child Federal foster care adminisn-tive costs = $3, 300.

      (Data from OIG report A- 90- 00274)


      Total number of foster care childrn    with   pennanency plans of adoption = 15, 600.


      Total administrative costs for foster car children with pennanency plans of adoption =

      $51.5 milion (15, 600 x $3, 300).
 Adoption Subsidy COS1.



Annual per child Federal subsidized adoption administrative costs = $629
($22 million administrative/ 35, 000 children = $629).
1$22 million figure obtained from OHDS for FY 1995J

TOtal administrative costs for subsidized adoption = $9. 9        million (15, 600   x $629).


 Total estimated Federal Financial Participation Savings            = $79   milion

(maintemmce savings of $37.4 milion +             administrative savings of $51. 5   - adoption
subsidy costs of $9. 9 million).




                                                  A-3
                                                 APPENDIX 

                             OIG RESPONSE TO DEPARTMENTAL COMMENTS

We received comments from the Offce of Human Development Services (OHDS), the Assistant
Secretar for Planning and Evaluation (ASPE), the Assistant Secreta for Management and
Budget (ASMB), and two external agencies. Please refer to Appendix C for the full texts of the
comments.

Offce of Human Development Services

The OHDS concurred with the report. They recommended several changes in language in the
recommendations and findings.

      We have adopted the language suggested by OHDS either within the recommendations in
      question or within the explanatory text.

The OHDS agreed with the recommendation to the States concerning adequate resoures for
State courts to handle termination of parenta rights cases, but urged that States examine curnt
court functioning to detennine " whether courts nee to be involved in routine reviews.

      We agree that the OHDS should encourage States to review their utilzation of their court
      systems in child welfare cases. The recommendtion calls upon States to provide the
      resources to the courts to carry out the functions assigned to them.

The OHDS agres with the recommendations addrssed to the Adminstration for Children
Youth and Familes (ACYF), and notes that preliminar             planning   is underway for implementig
these recommendations.

      We are pleased that the OHDS ha              begun preliminary planning to implement the
      recommendations. We urge the ACYF to pay              partcular attention to the need/or
      aggressive efforts to disseminate the informtion gainedfrom the various research,
      demonstration, and pilot programs, and to the States ' needs for support in imlementing
      successful features of these programs. 
        We are hom:.ful that projects funded to imrJlement
      treatment vrof/rams wil be focused on the full array Q.ffamily rJroblems that bring
      children into care and not on direct foster care services, except as part of a larger
      treatment plan that is also part of the funded program.

The Assistant Secretary For Management and Budget

The ASMB pointed out the imponance of distinguishing among the issues relating to
 reasonaqle efforts to reunite. " These issues ar insuffcient documentation, ambiguity
surrounding what constitutes " reasonable effons , and failure to provide services.
      We maintain that all three factors should be considered in understanding the problem, and
      we believe the report adequately reflects and distinguishes these factors. Failure to

      provide adequate services not only undermines the possibilty that children wil ever
      return home , it jeopardizes the State s abilty to place the child permanently in another
      home. Unless well-focused, intensive services are provided, the State agency has no
      grounds for its contention in termination proceedings that parents were given the
      opportunity to improve their functioning but did not. We have added language to the
      discussion of the " reasonable effort " finding that explicitly explains this double bind into
      which the current system places children.

The ASMB noted there is a need to evaluate the effectiveness of new State practices such as
expedited tracks and training.

      We agree. The report describes a number of promising initiatives that are worthy of
     further testing and evaluation.



The ASMB provided extensive comments regarding our estimate of $79 milion in savings. The
ASMB states that our estimate completely ignores the cost of implementing our
recommendations.

      The report clearly states that such cost increases ma occur. The ilustration was of
      potential savings in Title N-E costs that could be used to offset the increased costs of the
      recommended changes. We have amended the language in the cost section to more clearly
      make this point. We believe that, while it is important to acknowledge the needfor
      additional expenditures, it is also important to recognize that the changes in child welfare
      practices which we advocate could reduce the time and costs offoster care.

The ASMB was also concerned that we had not demonstrated that our recommendations would
result in shoner foster care stays.

      Our one year savings estimate was developed to 
   ilustrate the potential impact of more
      timely permnency placements. We     have mae some changes in the text to more clearly
      indicate that the savings estimate was used as an exmple of the potential cost offset of
     foster care administrative and maintenance cost reductions.

Finally, the ASMB notes that our cost reduction analysis should not include administrative costs
because It . . . they are much more a function of State claiming practices than of the number of
children or length of time in car.

      We agree that State claiming practices affect total adinistrative              to the
                                                                           costs biled
      Federal government. But these costs are also directly related to foster care caseload.
      recent review by the Offce of Audit Services, DIG, indicated that about 80% offoster care
      administrative costs are for child placement services such as the following: development
      of the case plan, case management and supervision, referral to services, preparation for
      and participation in judicial decisions, and placement of the child. (Please refer to
      Management Advisory Report: CIN- 90- 00274).
The Assistant Secretary for Planning and Evaluation

The ASPE agreed conditionally with the repon.

The ASPE was concerned that the report note the harship of    extended delays on children
awaiting adoption , panicularly on harder to place childrn.

      We have substituted in the background section the ASPE's language concerning the effect
      on children of extended periods awaiting implementation of permnent plans.

      The report found no distinction in the barriers facing special populations of children in
      going through the termination of parental rights process, except, as noted in the report,
      when various decision-makers ' perceptions of adoptabilty influence their wilingness to
     free children for adoption.

The ASPE suggested expanding several of the fmdings as stated in the Executive Summar. In
parcular, they urged more detal in the findings concerning scheduling and conducting court
hearngs and the development of new practices in some States.

      We agree with these recommendtions    and hae aded more detail to the Executive
      Summary.

The ASPE noted the need for the Administttion for Childrn Youth and Familes to suppon
State effons to improve the process of freeing childrn for adoption.

     We agree. Our recommendations call upon ACYF to perform specifc functions to guide
     and support State efforts such as serving as a clearinghouse for informtion, and
     providing demonstration and seed monies to assist in developing new practice and
     administrative models.

Finally, the ASPE expressed severa concerns about the figure concerning tie    requi for
varous activities (Figure 3) and the corrspondig text

      The times specifed as lower and upper estimates are the ranges of State averages for each
      individual activity. We have added explanatory text, and have mae the other corrections
      as requested by ASP E to make the section clearer and more consistent.



                 OIG RESPONSES TO EXTERNAL AGENCY COMMENTS

We also received comments from the American Public Welfar Association (APW A) and the
National Council of Juvenile and Family Cour Justices (NCJFCJ. Please refer to Appendix C
for the full text of their comments.
The American Public Welfare Association

The APWA stated that the recommendations for removing some of the barers to freeing
children for adoption provided a " useful staning point for future policy making considerations.
They expressed several reservations, however, with the findings and recommendations
concerning the definition and implementation of " reasonable effons " requirements. The APWA'
concern was that the treatment of " reasonable efforts " in the report gave too broad a mandate to
public child welfare agencies, while simultaneously implying that government should ration
services by prescribing limits on the level of services each family can receive.

      We do not hold public child welfare agencies responsible for remediation of the whole
      array of ils that bring children into care. The point of the " reasonable efforts " discussion
      is to indicate that in many of the jurisdictions surveyed the lack of consistent standards
     means that the court system frequently does hold State foster care programs responsible
     for meeting needs well beyond their public mandte.

      The report does not callfor prescribed limits on services for familes. Infact, our intent is
      to call attention to the need not only for aditional services but for better planning and
      delivery of those services as well. The purpose of the callfor State definitions of
       reasonable efforts " is to provide guidance to social workers, attorneys, and judges in
     making determinations of whether State effons hae adequately protected the rights of the
     parents. The vagueness in the current situation meets the needs ofno one, least of all
      those olthe children.


      We have added   additional language to make the discussion of the " reasonable efforts
      question clearer.

The APWA urged greater attention to the question of which childrn are adoptable.

      We agree, and intend    that the recommendtions to ACYF for    improved information
      dissemination would address this issue.

The APWA urged that the report review the Notice of Prposed Rulemakg (NPRM) for the
 national child welfare data base " and make recommendations on implementation reuiements
for such a system.

      Such a recommendation would be beyond the scope of this repon.

The National Council of Juvenile and Family Court Justices

The NCJCJ concurred with the repon s findings and recommendations.




                                                B­
                  APPENDIX 

DEPARTMENTAL COMMENTS AND COMMENTS FROM EXTERNAL AGENCIES





                           C - 1

.-                                                                                            ""'=(:
                                                                                       .;..--;... ,	"-"
                                                                                                 -!.!'       ...
                                                                                                           ...   . ..    ,"' .. .'~~~
                                                                                                                           ".     .
                                                                                                                                -..
                                                                                                                                ) \. \ \.. \.'   (..) :'    ,.'",\-::.'=-:
                                                                                                                                                                  ("
                                                                                                                                                                  . "     . '



                                                                                                                           Assistant Secretary 


                                                                                                                           W..     ",ng!on                 2020' \ h
                         DEC 2' 190                                                   :rIG                                                                         ; )W
                                                                                      DIG-Jil
                                                                                      DIG­
                                                                                      DI3- 0:L                                                                      , I


                                                                                      A!G­                                                       :".. ,\S"
     TO:              Richard Kusserow                                                GG: .
                      Inspector General                                               zz :.                                                      C:-=
                                                                                                                                                           .J\          I..
                                                                                                                                             ",1. .
                                                                                                                                                 \:. I
     FROr-1 :         Ass i stant Secretary for
                          Human Development Services


     SUBJECT:	        eIG Draft Report: " Barriers                                       to Freeing Children                                 for
                      Adopt ion              , eEl   -06-89-01640

     We have reviewed the draft of the Inspector General'
                                                              s report on


     barriers to freeing children for adoption. We                                                        find the report 


     to be quite comprehensive                         and appreciate the fact that much time 	
                                                                                                                                                                           )rL
     and effort went into this critical study. We have the following

     comments:
           eIG Finding
                      Administrative barriers in the child welfare delivery

                      system cause the most excessive delays in freeing

                      children for adoption.

                                                   The consideration of long-term placement
                                                   options for children is delayed. (p. 12)
                eHDS comrnen t :
                      We recommend reword i ng the                                sentence to r                     ad: The
                      consideration of long-term                                   care             options for children
                         is delayed.


            OIG Recommendation:
                Sta te   Governments should:
                                                   Prescribe clear time and service
                                                   requirements for " reasonable efforts " and
                                                   provide sufficient State funding for
                                                   compliance. (p.                        20)

                OHDS comment:

                      We suggest this statement read as follows:

                      Prescribe clear case assessment, case plan                                                           and service

                         requirements.. .
                      We also recommenc an additional bullet, as follo

Page 2 - Richard Kusserow





                    Provide necessary resources to enable State agencies

                    to ensure adequate case assessments and services to
                        l-i e s .
                        ami




3.     OIG Recommendation:
       State Governments                        should:
                                                Provide ade uate resources to enable

                                                State courts to hear and rule on child

                                                dependency cases in a timely manner.

                                                (1:. 21)


       OHDS comment:
                    We agree with the recommendation. However, we suggest
                    that States examine whether courts need to be involved
                    in routine reviews especially where a change of legal
                    status is not involved.
     OIG Recommenda 
                   tion:
       The Administration for Children Youth and Families                        should:
                                                Serve as a clear inghouse for information
                                                concerning permanency planning training
                                                and effective practices for implementing

                                                permanent plans. (p. 21)

       OHDS comment:
                    In response to the OIG report, ACYF is proposing to

                    fund up to three proj          FY 1991 which will focus

                                                            cts        in

                    on permanency planning.   Specifically,  these projects
                    will compile and focus available resource materials to
                    better address barriers      the child welfare, legal

                                                                  in

                    and judicial systems which inhibit and delay the

                    processes by w ich children are reunited with their
                    famil ies, placed in adopti ve homes, or established
                    other permanen placements. These projects will be
                    conducted by existing National Child Welfare Resource
                    Centers which already have in place extensive
                    mechanisms for dissemination.
page 3   - Richard Kusserow




    01 G commen
    The Administration for Children, Youth and Families should:

                         Explore staff retention   strategies.
                         (p. 22)


    OHDS   comment:
           In response to the OIG report, in FY 1991 ACYF

           proposes to fund up to fi ve two- year projects to
           demonstra te ways to reduce staff turnover, improve
           employee morale, and improve child welfare service

           deli very, including child protection. The projects
           will be evaluated and findings will be disseminated to
           the field. In addition, the National Child Welfare

           Resource Centers provide information to States and

           agencies on staff retention, (especially the National

           Resource Center for Management and Administration).
    OIG Recommendation:
    The Administration for Children, Youth and Families      should:
                         Through the Department' s discretionary

                         funding authority, provide seed monies
                         for implementation of treatment programs
                         tha t deal wi th current family issues.
                         (p. 22)


     OHDS comment:


            We agree wi th the recommendation to provide seed
            monies for implementing treatment programs focusing on
            family issues. Through the years, ACYF has funded
            projects addressing treatment for families and
            children to prevent out-of- home placement of children
            and to facili tate the return home of children already
            in out-of- home placement. In FY 1991, ACYF proposes
            to func up to three projects to develop or replicate
            model programs to provide specialized family foster
            homes for drug ana alcohol affected infants who neec a
            specia::zec :evel of care that their families are
            unable to provide. These projects will also address
              e rehab:li at:o c: parents ane reunification c:
Page 4   - Richard Kusserow




            families.         In       ACYF proposes to fund up to

                                    addition,

            five projects to develop model programs for the

            provision of day treatment for children who would

            otherwise be removed from tneir homes and placed 

            reEidential care: or to facilitate the reunification

            of children who can be returned from residential care

            ear 1 i r wi th the support of day treatment se rv ices.
            In contrast to residential care, day treatment

            services permit extensive involvement of family

            members in the treatment program.
7.   OIG Recommendation:
     The Administration for Children, Youth and Families             should:
                                   Move quickly to complete and implement

                                   the national child welfare database.

                                   (p. 22 


     OHDS commen t :
     We agree with the             recommendation.
Thank you for           the opportunity to comment on the draft report.



                                                .-/h

                                                v!-1ary !S   Gall
                                                                      ~~~                       ..   : ".   q :':.   :

..lL	
::'Z	                                   tfJ                     NOV   1""""
                                                                               W.shi
                                                                                       mOM
                                                                                       DIG­
                                                                                             . 200
                                                                                       AIG­
                                                                                       OGC/IG
        MEMORAUM TO:              RiCh       lc P. Kusserow                            EX SEC                            i,/
                                  Inspector General                                     ATE SEN                          fli
        FROM                   ". Kevin       E. Moley
                                                                              b, .
                                ' Ass istant             Secretary r Managem
        SUBJECT	                  ASMB Comments on the Draft OIG Report:
                                  "Barriers to Freeing Children for Adoption"
                                       ()cl- C/r -       ol(P
        Thank you for the opportunity to review and comment on the draft
        OIG report: "Barriers to Freeing Children for Adoption"    While
        the report contains some important and interesting discuss ions on
        the problems encountered in moving a child through the child
        welfare system and into an adoptive placement, we believe it has
        some flaws which should be corrected to preserve the integrity of
        these discussions. The problems and needed changes are
        highlighted below under the headings of Report Findings, Report
        Recommendations and Budget Savings.
        Report FindinO's
        Failure to make " reasonable efforts to reunite families" in an
        effective and timely manner should not be cited as a "barrier" to
        freeing children for adoption. A clear distinction needs to be
        made in the OIG report between insufficient documentation of
        reasonable efforts, ambiguity surrounding what constitutes

         reasonable efforts" , both of which are administrative barriers
        that cause delays in the adoption process, and the failure to
        provide services, which is a barrier to achieving the best
        possible outcome for the child and family (which could be a
        return home), but should not be considered a barrier to adoption.
        In fact, failure to provide                  services, or delays in providing
        services could allow already fragile family relationships to _


        of the report and in the Executive
        Report Recommendations

                                                                Sumary.
        deteriorate completely, resulting in the need for adoptive :. ! (:' c:
        placement. This distinction should be reflected in both the, pocly ; 7'
                                                                                                     . ri::; r-=
                                                                                                              ::"1

        Two of the four recommendations for State action, mandating 

        expedi ted tracks for freeing certain children for adoption, and

        increasing multi-disciplinary training for child welfare                          staff,
        judges, attorneys and contractual service providers, are based on

        actions and ini      ves already undertaken in many States.
                             tiati 	
        Al though the report describes these efforts already underway on
        pages 19 and   20,it offers no evaluation results that would lead
        to a conclusion that they decrease barriers and should be

        implemented on a national basis. If evaluation results are

        available, the report should include them as a basis for making
        these recommendations. If evaluations are not available, then

        the report should recommend that evaluations be done before every

        State takes on these efforts.
                           ~~~~~~
Page -          cnara




Budqet Savinqs

We disagree with the OIG' s estimate of $79 million in budget

sav ings associated with the recommendations contained in the

report for the following reasons:
         These savings would result in Title IV-E "if time in foster

         care was reduced by one year" for children with adoption

         plans, according to the report. It is true that some

         savings in the Title IV-E program would occur if time in

         foster care is reduced, but the report offers no basis for

         assuming that the eIG' s recommendations will result in

         shorter stays in foster    care.   The report may state that

         stays are reduced by one year, there may be some savings in
         Ti tle IV-E, but these savings should not be tied to the
         report I s recommendations.
         The $79 million savings figure assumes savings of $41.
         million from Foster Care Administrative costs due to shorter
         stays in foster   care.Administrative cost savings should
         not be included because they are much more a function of
         state claiming practices than of the numer of children
         length of ti    e in care.
                                  There is no evidence of correlation
         between claims for administrative costs and the numer of
         foster children or the     lengt of stay in care.In fact, it
         is more likely that States would attempt to increase claims
         for foster care administrative costs if more intensive
         efforts to free children for adoption were made.

         The OIG' s savings estimate completely ignores the cost of
         implementing its recommendations which will increase State
         and Federal costs dramatically: providing adequate State
         funding for compliance with " reasonable efforts"
         requirements: providing adequate resources to enable State
         courts to hear and rule on child dependency cases in a
         timely manner: and increasing training for all professionals
         in the child welfare field. Although it is difficult to
         estimate the total cost of these efforts, we believe it
         would exceed by far any savings achieved in Title IV-E.
         Any recalculation of Title IV-E savings estimates should be
         coordinated with either OHDS or the Budget Office in ASHB so
         that the most up-to-date costs can be                 used.
                                                      Estimates are
         revised every six months, and using data from another eIG
         report, as this report does, will not allow for accurate
         calculations.
           --.-      .... ' /	
                    ...                                                                   . (, \,.. . '- . .      ...' .../:.
                                                                                                                 :.,   . ...-.-.
                                                                                                                               :,.
                                                                                                                                 "".    , -    '..        ,,..'::-.
                                                                                                                                                          -..    ,. ...--..
 J(L                                                                                      -1U- ./
::::;'i	                                                                                                                        Washington . D. C.   202cn.
      MEMORADUM
                                                                            NOV I 9 193.                                 ,,'::i\
      TO:	          Richard P. Kusserow
                    Inspector General	                                                                           c :.                                         I .


                                                                                                          r:


       FROM:	       Assistant Secretary for

                    Planning and Evaluation                                                            . I, ;



       SUBJECT :	   OIG Draft Report: "Barriers to Freeing Children for

                    Adoption" -- CONDITIONAL                                 CONCUNCE 	                           O€/- 0t-             tf9- ()16

       I concur with the report sent for my review provided that my
       concerns outlined below are                                addressed. In
                                                    general I found the
       report to be very thorough and   informative.  The report could be
       strengthened by including several findings that other studies
       have documented concerning children awaiting              These are                            adoption.
       discussed in the first section of this memorandum. The second
       section focuses on the study I s findings and recommendations, and
       the third elaborates a numer of edits which would improve the
       report I s readabili ty .
       Children waitina Ado                     tion
       The report clearly shows that adoptable children are
       unnecessarily spending many months, and even years, in foster
       care.  Apart from the concerns you raised with this in the
       report, the study should also make clear that the perpetuation of
       this problem takes a terrible additional toll on children who
       have already been victimized by their original parents.
       suggest that the background section specify that extended
       unnecessary stays in foster care also severely compromises the
       healthy development of these fragile               addition, it         children. In
       has been well-documented that older and minority children face
       the largest barriers to timely                       should also   adoption. This fact
       be included on page 10 which only addresses how long the average
       child must wait. I think it is important to provide both of
       these facts in the Executive Sumary of the report as well.
       Findinas and Recommendations


       The body of the report contains many excellent findings that

       should be made more readily accessible in the Executive Sumary.
       For instance, on page 16, the report states that " in non-urban
       areas of most states, child custody cases...
                                            This
                                                    may be interrpted at
                                                 sentence could serve as
       any time for other civil matters.
       an excellent addition to the bullet associated with the finding

       in the Executive Sumary which currently reads scheduling and
       conducting court hearings delay implementation of adoption
       plans. .. In fact, virtually all of the findings in the Executive
   PDIG
   DIG­
   DIG-EI
   DIG-
   AlG-l!P
   OGC/IG
   EX SEC

Sumary could be made more explicit if an additional sentence or
two were taken from the body of the report and added to each.
The recommendations for actions to be taken by State governments
and the Administration for Children Youth and Families (ACYF)
should be strengthened to provide for an integrated approach.
Currently, two of the report' s recommendations specify that State
governments " prescribe clear time and service requirements for
 reasonable efforts" and " offer increased training... for child
welfare staff, judges, public attorneys, and the staffs of
contractual providers. II I suggest that similar recommendations
be made for ACYF to support State efforts in these    areas. For
instance , ACYF could provide needed guidance to States attempting
to define reasonable efforts by sponsoring a study of St
practices in this area and issuing a set of recommendations and
perhaps even model State       legislation. In
                                            terms of training, ACYF
could develop training modules which States could utilize to
provide much-needed training.
Edi torial Comments
(Page ii). Unlike the other headings in the "Findings"   section,
there are no bullets under the heading that readsII Some states
have developed new practices. II A few brief bullets on the
findings under this heading would be helpful and appropriate to

this section.


(Page iii). In the note at the bottom 9f this page, the

capitalization of the words I' maintenance" and " administrative"
(in reference to foster care costs) should be made    consistent.
               3).  Even though they describe the same process,
it is hard to relate the information in these two figues to each
(Figues 2      and




other. For instance ,  it is not clear where the "family
reunification determined infeasible " step to adoption in Fiq-.e
is shown in Figure :2, which is a flow chart of the entire
adoption process. Labels in both        figues
                                           should be made
cons istent.
(Figue 3). It is uncle r how the upper and lower range of
estimates in this figure was       derived.
                                       For instance, do these
represent average State differences (meaning an average or median
was found for each State) or is this an absolute range (meaning
the highest and lowest case-specific estimates across (or perhaps
even within) States are compared? This should be explained in
the text of the report or in a footnote to the Fiqure.

in relation to Figue 3. Briefly, Figure The
(Page 8). It is very hard to follow the discussion on this page

                                              3 estimates the entire
adoption process takes 30 to     108 months.      second paragraph
sta'tes II in actual practice " children are in care from " six months
                                                 specified in the
to 4. 5 years        (54 months) before adoption is          II in
permanent plan. Moreover, the next sentence states that      most
of the states providing detailed information" children spend "
to 3. 5   years" (30
                  to 42 months) in foster care before a
determination is made that adoption is in their best interest.
It would be helpful if:
f iqures consistently in
                         one, the text and the f
                          either years or months
                                                  iqure gave these
                                                 (or supplied a
translation in parentheses as I have done above); and two,
addi tional explanatory text was provided that included direct
comparisons of the differing estimates to help account for their
differences thereby providing the reader a better-defined context
wi th which .to interpret these numers.

The final two lines of text on page 10 should be deleted as they

also appear at the top of the next page.

(Page 15). A word appears to be missing in the second sentence

of the first paragraph.

---
......                       ,.= - "' - ~~~
             - ...:: - --'-,..::-
                             ..           :.: :=     .,- .. .                      : - ,:=.
                                                                               --....-   -_  - -,. --
                                                                                             ~~~
                                                                                         --.-..".
                                                                                              \.' ''--"'-           - '.. -
                                                                                                               \. ' '"        (?         ...      . --- \?
                                                                                                                                                        . "' .. ). #
                                                                                                                                                    :-"-,#- ~~~
                                                                                                                                                            .  ...
                                                                                                                                                            " "..           -:---
                                                                                                                                                                  .: '...-= ....- : ,...,!..
                                                                                                                                                                                       :--
                                                                                                                                                                                       "\

                                                                                                                                                                                         h.L/
                                                                                                                                                                                                  " ....-';""'
                                                                                                                                                                                           ...; -....




                    fERIC.AN PUBLIC WELFARE ASS 0 C !' A T ION                                                                                                                                      c. c. S
                                                                                                                                                                                                             C- C.

                                                                                                                                                                                                                 ) R­
                                                                                  Ruth               haidc
                                                                       A. Sidnt' Jo        onJl, mc.Vtivc Diraor
                                                                                                                                                              1..\
                                                                                                                                                                      ,. \\; i..
                                                                                                                                                                     f""",
                                                                                                                                                                                             r;

                                                                                                                                                                                                    ;'''t,
                                                                                                                                                                            .. n.


 De::e;.bE:,r :2,                                  j. 990
                                                                                                                                                        7=                   IV b,
                                                                                                                                                                            O':
                                                                                                                                                                                                          S:
                                                                                                                                                                                                          -:1 /­
                                                                                                                                                                             ':V
                                                                                                                                                        ,,7

                                                                                                                                                              ,6
                                                                                                                                                                                   r.        r;




   ichard ? Kusserow
Inspcc                 or Ge                       eral
   epa= men                             0 f         Health and Human Se=v                                                   ces
Office of                           lnS?ec            General   o:

Washi                                         D. C. 2020l
Dea:               =. K                 sserow:
       ank you for the C?po:                                                             nity to review and co                                                       ent on you=
c.:af              =epc:-t                           Bar::.ers to ==eeing Children fo:                                                                               Adoption.
The :-eco                                     dat        ons for how to rempve                                                    ome 0: 
hese bar=                                                ers
p=ov de a use!                                       l s arting ?oi                                         fo= f                 ure policy mak:.n
cor.siders::. ':or.s.
                ajor a:-ea       h the recommenda ions is over

                                                      of             concern wi
 he disc                       e reasonable efforts req :.=ement

                                  l law.
                                  ssion :ega:ding 


in :ede=                he one ha        the re?or sta       hat
                                                             On                                                                                                        es

 c::ild we::a=t: aoe:nciE:s freauerl'::ly remove children :::ore
 he:ir ?a=e   s and then canno cr do nc provide adequate,
appro?=iatE: social services and support to remedy the
       :ons i these homes thc =roucht the children :.nto
                II (p. 1:)
ca:e.                          o say t       a shortage of ce:- ain  goes on

services reduces agency abili           o respond adequately to
        p:-Cily       ch as adeq      e housing a d insuff =ient
                                       lcffS

                                                                                                                                               14).
subs-:a:i.:e                        a:C-.se                  rea'Cmen': resou=ces.
:he re ort see ms to im                                                              v tha

                                                                                                                                          .are aaenC.les
                                                                                                       in order to meet


.. Q            .. "i::- I;__--- S _ eqt,.J_
             o.._-                            J:
                                                                                                  .., Cu               .: we_
                                    res?oZ'sible for                                         '" v; Ii'         T"                        - ndin - " n.o
s::o-.':= 1::
   .=n;-e c:                                   r:. ::e   s,
                                                         hich
                                                                         in::: '\di::;
                                                                                : h       s no
                                                                                                  hous in; an: substance
                                                                                                            es igna               ed             espo                   i=ili

                                                                                                                                                                              ab".se
       e :e=eral                              :-eascn
                             l: e::v= s =equi=emen
                                                                                              does

?=es==             hes: c= a y c e= se=7ices be ?=ov                                                                                                                          d;=,

       : :=c
       es                         = :0= =oe   id: f                                                         ci65                          =ovide all c:

                                                                                                                                                                                     :ld
$e=vic s wh                                       ions unoe whic
                                              =h add=ess 


   'C ----     "C. . . .. p"." ,.,, C",."               ., - - s C 81 a"" , e e -= 
                                I,""w         t:c.

           c==                            ecog               ec by a  e C                                                                                                                         =a=e
agency =a                 =es?c                :=  add:-essi        ;  all c                 le                                                                                         ese

            c:, (, ::'P\"'. c: ....--                                C:.pwo-   .:r,f\ "                               r "'nnr~                 ""r'::                  f':C"-: . r, ."i."\
:€-..
  ,.-"
?:;   -':.q-.
   ,.--
   -,-..­
     ".....-
          == --....
             --..~~~
          ': -::.;
             - =::   --\--
                   ....-
                    ...
                   --- ...-..--
                       -.--'-...--
                          --'-~~~
                          !)g     .~~~
                              .. _..
                                 .:-
                                 .   ..._
                                        ""-          -..,,- ---  -=-";".
                                        . -... ""-=-. ':''-. -----..
                                     -..,.
                                        ~~~
                                        ~~~                    --.-'--"-
                                                                -...-
                                                                ..:-    . - ---..---
                                                                        --
                                                                      ""--    '"-.: ;.     - ~~~
                                                                                       -,.._
                                                                                       :- :-.:.. - ,.,.:.=- -
                                                                                             ..-.
                                                                                             =.':                                                                             ..   ~~~               ..-- ~~~
                                                                                                                                                                                                     :.    -,.-
                                                                                                                                                                                                           - --:.-:'
                                                                                                                                                                                                          ::'  ::. -"'-
                                                                                                                                                                                                                      :'.; ­
                                                                                                                                                                                                                   .......          - -




?:. c::                               l:SS e                         'f'

De =emDE: r                :. 2,                990
P age Two


           ce=                                                                          0 b=                             ocial a d eco                                                      ic F=o=le
                                                                                                                                                                                         bility o: all
                                                                                                           a=

                                           i:ies m                                                  be                  e sha=ed =es?o
                                                                  com:nc                                        'tc:-                                                                -\o
     JE:       S ,.                             -"'''.''.-..''1
                                                                                           ..-t:                              L--.._v.'-I
                                                                                                                                     C'
                                                                                                                                          .. 4..
E:"v'e  i: s:.a,    age:!"c:.es c.c " E:.s        clea.= ti;r, an: 5e=-" ;.:;e
                                                               e
=eq:;i.l"      :'s :0= . =ec. :::;o.:::c e::c t.s 1" -=:-.Lese ;:ec; :.=e:-e:-..:.s
                                                                            ull
        c: :          oi        de a
                             kely         serv s :hat mee
                                                           o =ecog
                                                                                                                                                                                                          the


    ge 0: :am                         =  re?c=
                                           ly                     eec5.                                                                             neecs




Mc=e irepor=antly,                                                   wh c:.'t                      is lack                           g in your reco                                                  enda icr.s
a ci cussio abou                                                            F.ow                    he fede=al 
                                    overnmen                                 can =os
                        es wh                                                                       e h                                             ice ne                         wc=k.


?=c:t; ems c                                                                               Co!                                        -ru          "1"t                 - :2o c    €E-                    so m', s \:
=he re5?O                    ses.                                                  reccmmer.d                                 ior.                                           ACYF ?rovice seed
                                           ?le!!e                                                                        =ea                                                  9g:      C. t. cieE.l
    c:;:.es :c=                                                                    a t. i 0::              c:                                                                                             t1

T,:i                   =:-e:!".                                                               ues                        (:ou               =er- ?roduc ive i!' tl-.a,,
aS$U:TE:S                   .;c: ..                    :.lc                      i/:e       :.:=e                                      ;s                 re                  he mc                        .ap                  =:" C::' €:



                                      ?=c\. icie                                                                                                                                             o=uc i ve
a9=:-.c:.e
    =:Jacr.
age:,::ies, such as
                                    t:2.d be
                                                                                         hese se=
                                                                                         re=
                                                                                           Of:ice
                                                                                                         ire :ACY:
                                                                                                               substan
                                                                                                                          ic:s.



                                                                                                                                                                        ce
                                                                                                                                                                              er federal
                                                                                                                                                                                  se Pre                                  =io
a.r..   CU;                 rDar; Deve.!O?me          coorcina                                                                       -:, 'tO


                                                               -::ie" ir=:.e=s :'0
                                      c:.. ..

    ,...-:..t:
      - _.h- \.:10:=
r" - -' 

                        -::le              !.O::    er:o\;:.n;                                       8 .
                                                                                                            c:':


               -: ems            :. e s  su= as ca-:egorical fun
                                                 a co: i ,\,.:.

el igi           y requ =erner.=s                more ap?ropr (?-:e anc.
v:.sio ary way of fos eri a(:=ess -:0 'the =ange c: se:-. ices
                 ili




 :E.:-i2iE:s     E:e::.
i.Je                     E. =                     2 a :-l y                              =c\.=lec =:'                                -:he             im?lica                            icn ef


                                                                              ef:ort reco enda ic!':
                                                                                            he =easo!'able
                                    ;. c

    _..-c:_e-
 ::...-                ece=es
                          .c: ..
     s:.a-:= gove=-:1:==                               p=esc=ibe C.Lear    crl           "1", -; and s-srvi ce­

           re:'e::       On i                 s _ ace, such a. =ecorr.men                          ':o:J :: -­

       er? e\:e o mea                                   gove=     rnen        should       ra    ion     presc=ibed
 doses of services.                                            ily         and   child       =            o be = =ed                                                                          il 



           e p es::          ec ?e=                               reE. rnen
                                                                                    If

                                                                                        s  c  oc,                  ne                                                                                ail

      i:d is re        cve=        :                                                e=ri :cn                            :ly                   and


   =oc=ec.ings ar: i:'sti                             e=. i!:!neciia-:ely. Gi ve:' ;:he f                                                                                                                                c-; :.ha



                 s new k                                           =eatmen and service
                                                   II C                                                        mc.
       e rve!: i er;s           Co ­
                    =e It  :  a::.
                                                                                                        desire      ­
                                                                                                                                            i 2.               ;::-0:              ems


 w- ?=es=                  imc 2.i:ri -:s                    sc=v.ices          S!I. a CY. s
                                         g:.:;ee                                     c.__. c::s     s .                c.:
      ;a;E: in           :"c;:                                              ..w..__
                                                                            :arr.             -._1l   i":  5CT:.er.                                                 i:ies
                                                                                                                                                                                                                 c:


         'C-.. :. s           :"::;;.1:'c          :;0"::":):: -:
           :!::e                k lo=                                             se:-ies             5 e::-                                                                                                          ':' ce


                  ..e-C"      =:::'.. $; :. =.e =-              =::se::           =easc:-.a=l           e =fc =': E "

 v:t_      :7.
                            i ""-'"-'=           5-==\7':=-=        I :. '" :c.      O:"e   f a:::.1  

      c:ceS:EE=:.l MJ:-Co..-                                                                               :. s         lcg            =E.:                                  a??=c? is..:e
               - __a ...
  /. '".-' \
. .            ,/             -. .. ..---
                            . . ...
                    ----- .--....
                     :.. " ~~~~~
                    .~~~   ; "'
                             ~~~
                             -     .?--
                                ,.----
                                   "'--""'
                                 ..-_  ~~~
                                      ~~~ ..- -.,-"-----
                                      : .."'
                                          .._--:
                                     ;""'-'
                                      -':_-...:,...-
                                                 '"~~~
                                               ===
                                          :y ";.._.
                                                 '-. ,. ..!:
                                                      :.,..
                                                     ,...
                                                   ~~~~      ....-=- -"':. ....--
                                                           ~~~
                                                     ",.. ..-                  ~~~
                                                                                -   ,.- ,.,-
                                                                           - - ;"=----
                                                                                    ~~~
                                                                                  ""..   ~~~
                                                                                           ---
                                                                                           .: "''-
                                                                                               ""'
                                                                                              -..
                                                                                             ..    - -..--
                                                                                                  ':"  ...,..
                                                                                                        ..'". "".;.. ::
                                                                                                                     - ,." ..; ,--
                                                                                                                                .:. ..- --..-- -      -..;:-
                                                                                                                                                        - -.-="'- .. .-..".- ....
                                                                                                                                                            --     p..--
                                                                                                                                                                    ::- ,."'
                                                                                                                                                                    ..     -'-   ::,,
                                                                                                                                                                              .-''''-
                                                                                                                                                                                  .:- ~~~
                                                                                                                                                                                      -    -..--
                                                                                                                                                                                          ~~~~
                                                                                                                                                                                           ~~~
                                                                                                                                                                                       .. ,.     --
                                                                                                                                                                                                 - -':




                    R:cha:c ?                                              erow
                    Decem=:e: 12,                                     990
                    page T::=ce


                    Our !i al area of concer                                                               with the discussion o! :easc      able
                                   -..w --                                                                            scu  ecel    .: l.n ...
                                                                                                                                          or: .Le
                    docume                          vis a I                 vis its                    p:esence as a legal re
                            L.             96"'272. (Page 2 of                                          he ci=aft report notes i-:                                                                link

                        he la                   ; page 11 disc                                  sses       s a pro;ramr. atic issue). hs
                    you kno                                           Sec        ion               27 :eview requires tha for every
                             : os er care, the case record must note that
                    reaso
                              10

                                 ::crts have =:een made. !: such a nctatic                                                                                                                                      :ails
                    to appe
                                             a=le

                                                    ri
                                  the case recc:c, the s ate is subject to fiscal
                                                           ust necessarily seek
                    penali t:es. Because 0:                                                            this, states

                    to assu:e that they can documen that reasonable effo=
                    have in fact been made. Thus ( i is important t.o make: not.e
                    of this =equireme t in your repo=t.
                    ':J1o-:ner a.rea which reauires a-:t' eI'tion                                                                                                          crest.io:1 of
                    ""n-: u _h__       e..
                             --.: 1 . ..
                                               .c - - ' ."i..--  P\                                                                             \0
                                                                                                                                                is
                                                                                                                                                 .e --
                                                                                                                                                            t.he
                                                                                                                                                                                                   .. r- co -     :I ..

                               c:--, .,U::'I'.._. ..... w ---_ .u.. c:_- . wi
                                                                                                                                     E:                                                        a\.--
                                         .,_I'                                       ..w.'d                                                                                ",rI ,1


                    withou ex?e           ce in juver.ile ma        t.e=s,  freque  ly    have                                                                                                                   more
                     imi ec views of which childre car. be                          han                                                            adopted

                                                                           o corre:spo ncii:i:;
                    ::-:perie!1ce i::c.icates is t.='Je
                    reco =!1datio for ho to deal wi                            Encouraging
                                                                                                                        he:;e is:


                                                                                                                                          this.                                                                  ilc
                    states to                          eSta.blish a icelines fer de                                                             errninina                                 at a =
                                                                                                                                                                                 w(: .. c.w..._
                       c: ::_ c:_-                              c. w ""Co - .,.1: "'''
                                                             .o _

                    this               ?==blere.should encourage bctr. adcp i ve
                                                                 rec
                                                                                           re?o=
                    ?a=en acvocate orgar.izations     I s to br ng v
                                                                                                                      and ACYF to


                    cons derable at                             entio  cn anc

                                                                            e 1990
                    =la                                         issue.

                    Finally, yo                             = repo=: re fer ces t e " national                                                                                   child welf

                     ata b                                                       is =           lled                o= in P.               L. 96-2'2.                                  Sec:ion


                                                                      SeC                              ..""\.1 ame:ldec ;,n the Omnibus Sudget
                    Re=c                        :iatic                                 of 1986,                     called fo= the esta                                                    ishme
                    c .. -        c;'; ""!:,, .lC:1 c:.... -
                                                                             for :.h
                     vste!n. ':he No-:ice of ? =c: sec: Rule-ma.kinc (N?RM) The
                                 issued bv AC . O            erne= 27 1990.      date
                    :c= i ?:c         ion Is Octobe:         1991.
                                                               =inal
                                                                     The da a eleme
                    called fc= i                  EYS
                                                                     purposes. Howe" er,
                                                                            is
                                                                                                                                                             y ?=cvide


                        he ir.:::=!:.                       ion needed :c= ?clicy mak
                    we a=e =
                                 ed abcc               la=k of adequa e =                                                                                                          ; =0=
                       s sy                                            :i           CY:  o P=O
 iCE 

                            =" '" c:                           he s    s:   :evelo?      heE: sy      s a

                              age                                     :yz                                                                        ..c. -



                    =ene=                                             is                                       :t        e s                                                     b\'


                    -:::e           !'iP             !.r::: ==:::TE:                   ': i::                  t,::-. So:' yl0.           : c ::e :1eCE: S s a r;.
                                                                                                                                                                     erne
                                                                                         == =2                         Sc.
   .. .                         ~~~



Ri=hard ? 

                      :2, : 


F (;S'€:      Fo\;r




I hope          'Chese              CC::"Te!'''      a::e useful for yc:.r   :inal   re?o::
?2.ease :eel                    :ree:          c cal: Jenr.       :er
                                                               Mi:2.cr 2       (202) 6E2-C:OC ;
     27e a                                        s cr need mo::e inforca     ion.
S'::1=crely




!hj            . Shcl:e                  2e=
Director 0:                        ove:: ment A::ai=s




                                        ssea      0 I Con   ell
                                                                                           -----.

NATJ                         IL OF JUVENILE AND FAMI                                        Ol!RT
              IVERSITY OF   srV ADA P. O. BOX 8970 RE."-O    V fj9 O' 17021 784   12 FAX r7021   7   -6.28


                   October 29,            1990




                   Richard P.Kusserow
                  Inspector General

                  Depar ment of Health and Human Services
                  Washington, D.     20201   C.
                  Dear General Kusserow:


                  ! am in receipt 0: the
                  Freeinc Children for                    Barr:.ers to

                                                                   d=aft report

                                            Adc tion    published   in
                  September 1990 and recently disseminated for review
                  and comment.    Thank you           opportuni ty    for the
                  respond to this timely publication.

                  A most salient feature of this report on barriers to
                  adoption is
                  technical assistance to
                                           its call forjudges
                                                         increased training and
                                                                                  assigned to hear
                  cases involving abused and neglected             The
                  Of:ice of Inspector General (OIG) researchers appear
                                                                                        children.
                  to  be right on point in their recommendations,
                  including the conclusion that "increased training on
                  permanency planning, in general, and on termination
                  of parental rights, in particular, for child welfare
                  staf::, judges,                               torneys, and the staff
                  con ractual service providers
                                                public a 

                                                                    II is         needed nationwide.
                  It was most gratifying to read the report
                  recognition of " almost
                                        a decade of efforts by groups
                                                                                                             Is

                 such as the National Council of Juvenile and Familv

                 Court Judges, " bu also disturbing to reali::e ho

                 widespread is                 our
                 judicial education in this area.
                                                             ion I         needs for con:.inu:.ng­




       54th Annual Conference July 14- l8. 1991                   Rapid City, Sourh Dakota
Richard P. Kusse
October 29, '990
Page Two


  e report se ves as a pointed reminder to            those of
us i:1volvec i:1 judi:::.al education
which judges
                                          of       the i::.pac-:
                a:1Q co rt sys   s have on the lives
children and   ilies.      The membership and s aff of
the Na tio a 1 Council remain com                    the
challenge of perllanency plann1:1g for all chilc.ren
                                         i tted        to



who come before t.he r.a t.ion I courts. This report
provides new anc    :1eeded emphasis on the       judicial and
interdisciplinary cooperation necessary to achieve
this goa   1.Tha:1k you for your leader ship role in
the compila t10n and dissemination    of this vi tal
information.
Sincerely,

 ouis w. McHardv
Executive Direc tor   /Dean
LWMcE:am
